Agency Financial Report
U.S. Election Assistance Commission
November 16, 2009
                                                            Election Assistance Commission




ABOUT THIS REPORT


For FY 2009 reporting purposes, the U.S. Election Assistance Commission (EAC) has
elected to submit an Agency Financial Report at this time, with an Annual Performance
Report and Citizens’ Report on February 15, 2010. Last year at this time, EAC submitted
a Performance and Accountability Report (PAR). The PAR consolidates financial,
budgetary and performance information to the Office of Management and Budget
(OMB), Congress and the Public. The quantity and diversity of information makes the
target audience difficult to identify. Acknowledging this issue, OMB implemented a
pilot program in FY 2007 providing agencies with the option of splitting the information
in the PAR into three separate reports targeted to OMB, Congress and the Public,
respectively: the Agency Financial Report (AFR), due 45 days after the close of the
fiscal year; the Annual Performance Report, due with the Congressional Budget
Justification; and a Citizens Report. The AFR allows EAC to focus on and lay out its
financial position at this time, while providing summary performance data. A Citizen’s
Report and a combined Annual Performance Report/Congressional Budget Justification
will follow per guidance in OMB Circular A-136 Financial Reporting Requirements.




            Information about EAC’s programs is available at www.eac.gov.
                                                              Election Assistance Commission




MESSAGE FROM THE CHAIR
I am pleased to present the U.S. Election Assistance Commission (EAC) FY 2009
Annual Financial Report. The report describes EAC’s financial results over the past year
as it pursued its mission to assist the effective administration of Federal elections. The
report highlights efforts to strengthen internal controls and financial management
activities. This is the second year EAC has undergone a financial statement audit per the
Accountability of Tax Dollar Act of 2002, and the first year EAC is participating in the
pilot performance reporting project as described in OMB Circular A-136 on Financial
Reporting Requirements in place of the Performance and Accountability Report. EAC
presents summarized performance data in this report, and plans on providing as much
detailed data as possible in February in conjunction with the FY 2011 Congressional
Justification.

During FY 2009, to address issues in the FY 2008 financial statement audit, EAC:

      Adopted it first Strategic Plan for 2009 through 2014 in March 2009 allowing the
       agency to begin the process of reporting on formal performance metrics;
      Reorganized, establishing its first Chief Financial Officer department consisting
       of experienced grants, budget, accounting and procurement staff;
      Finalized financial management policies and procedures;
      Submitted a FY 2010 Congressional Budget Justification and FY 2011 OMB
       Budget Justification in a performance based format; and
      Closed out many outstanding recommendations from operational audits and the
       FY 2008 financial statement audit.

The agency has made tremendous progress in the program areas during FY 2009. EAC
made strides in speeding up certification of voting systems: between February and
August, three voting systems were certified. In order to improve communications with
stakeholders, EAC instituted a Testing and Certification Voting System Reports
Clearinghouse on its website. EAC issued a report on Voter Registration, Quick Start
Management guides on administering Federal elections, best practices for voter
information web sites; held roundtable discussions on Elections, Election Office
Management and Accessibility; awarded 13 Poll Worker grants to colleges, universities
and nonprofit organizations totaling $750,000, and seven Mock Election grants to State
and local election officials, and regional and nonprofit organizations totaling $300,000 to
educate secondary school students and their parents about the electoral process through
mock Federal elections.
                                                              Election Assistance Commission


EAC committed resources and time to move from a disclaimer opinion on our financial
statements to an unqualified (clean) opinion in the second half of FY 2009. EAC
continues to improve it programs and operations, strengthening internal controls,
financial management, and information technology across the agency. Additional
information on corrective actions can be found in Section I.E. of the Management
Discussion and Analysis which follows. Some work remains to be done, such as a
program of continuous internal control assessment and improvement as required by the
Federal Managers’ Financial Integrity Act.

The financial and performance data in this report is reliable and complete without any
current material weaknesses. The financial statements being submitted in this report are,
to the best of my knowledge and belief, accurate and reliable.

In FY 2010, we look forward to awarding grants for voting system logic and accuracy
testing and disability research totaling $6.0 million of no-year funds appropriated in FY
2009, improving the quality of technical assistance to recipients of Help America Vote
Act funds, improving the agency’s information technology infrastructure with the hire of
its first Chief Information Officer, analyzing results of user feedback on the quality and
usability of our research and training materials, and continuing to provide materials to
election officials to assist with the administration of Federal elections.




Gineen Beach, Chair
November 16, 2009
                                                       Election Assistance Commission




TABLE OF CONTENTS

SECTION I - Management Discussion and Analysis…………………………... 1

I.A Background, Vision, Mission and Organization Structure……………………. 1
  Funding……….. …………………………………………………………………. 3
  Organization by Program.……………….……………………………………….. 5
  Organization Chart……………………………………………………………….. 7

I.B Performance Goals, Objectives, and Results…………………………………. 8
  How EAC Assesses Performance………..………………………………………. 8
  Strategic Goal Structure………………………………………………………….. 8
  Performance Data Collection and Validation……………………………….……. 15
  Summary Performance Information.…………………..…………………………. 15
  Program Performance Indicators…………………………………………………. 16
  Portfolio Analysis………………………………………………………………… 17

I.C. Financial Results………………………………………………………………17
  Budgetary Resources………………………………………………………………17
  Financial Position………………………………………………………………….18
  Limitations of the Financial Statements………………………………………….. 21

I.D. Analysis of Controls, Management Systems, and Legal Compliance……….. 21
  Federal Manager’s Financial Integrity Act……………………………………….. 22
  Federal Financial Management Improvement Act……………………………….. 29
  Accountability of Tax Dollars Act of 2002………………………………………. 29
  Federal Information Security Management Act………………………………….. 29
  Inspector General Act Amendments of 1988…………………………………….. 29
  Annual Assurance Statement on Internal Control...……………………………… 30

SECTION II – Financial Section………………………………………………… 32

II.A. Message from the Chief Financial Officer………………………………….. 32
II.B. Inspector General’s Assessment……………………………………………… 34
II.C. Independent Auditor’s Report……………………………………………….. 37
II.D. Financial Statements…………………………………………………………. 53
II.E. Notes to the Financial Statements……………………………………………. 57

SECTION III - Other Accompanying Information……………………………. 73

III.A. IG Assessment of Most Serious Management Challenges Facing EAC……. 74
III.B. EAC Response to the Most Serious Management Challenges……………… 81
III.C. Improper Payments …………………………………………………………. 85
III.D. Summary of Financial Statement Audit and Management Assurances…….. 85
                                                                       Election Assistance Commission




SECTION I

Management Discussion and Analysis
Management’s Discussion and Analysis (MD&A) is presented in accordance with Statement of
Federal Financial Accounting Standards (SFFAS) 15. The MD&A is intended to provide a clear
and concise description of the agency’s mission and organizational structure; high-level
discussion of key performance goals, results and measures; analysis of financial statements;
systems, controls, and legal compliance (i.e., Management Assurance signed by the Agency
Head); compliance with laws and regulations; and actions taken or planned to address problems.
It provides a balanced analytical assessment, with both positive and negative information, of key
program and financial performance. The MD&A is a vehicle for communicating insights about
the agency, its operations, programs, successes, challenges and future outlook. Contents of this
report and the MD&A are in conformance with Office of Management and Budget (OMB)
Circular A-136 Financial Reporting Requirements.

I.A BACKGROUND, VISION, MISSION AND ORGANIZATIONAL STRUCTURE

In October 2002, Congress passed the Help America Vote Act (HAVA). The law recognized the
need for States to invest in their election infrastructure and set out a comprehensive program of
funding, guidance, and ongoing research. To foster those programs and to promote and enhance
voting for United States citizens, HAVA established the Election Assistance Commission
(EAC). The vision for EAC, according to the Strategic Plan 2009-2014, adopted March 2009, is
to lead election reform that reaffirms the right to vote and to have all eligible votes counted
accurately.

EAC is an independent, bipartisan agency. Four full-time Commissioners, appointed by the
President and confirmed by the U.S. Senate, and three Federal advisory committees--the
Standards Board, Board of Advisors, and the Technical Guidance Development Committee--
guide the EAC. Its mission is to assist in the effective administration of Federal elections. EAC is
statutorily required to:

      Create a clearinghouse of information for election officials and the public.
      Distribute and monitor HAVA funds to states for election administration improvements.
      Issue, and periodically review and modify, as necessary, Voluntary Voting System
       Guidelines (VVSG).
      Accredit voting system test labs and certify voting equipment.
      Conduct periodic studies of election administration issues.
                                                                       Election Assistance Commission


      Establish best practices and guidelines on election administration for state and local
       election officials.
      Maintain the national voter registration form developed in accordance with the National
       Voter Registration Act (NVRA) of 1993.
      Provide Congress with a bi-annual report to assess the impact of the NVRA.

The Standards Board and the Board of Advisors provide advice and guidance to EAC on
Voluntary Voting System Guidelines and other election administration issues. In addition, the
Technical Guidelines Development Committee (TGDC) assists EAC in the preparation of the
VVSG. The VVSG sets the standards against which voting systems are tested. The Director of
the National Institute of Standards and Technology (NIST) serves as the Chair of the TGDC and
provides technical support to the Committee. Additionally, HAVA specifies that NIST provide
recommendations to EAC regarding voting system test laboratories. Since Fiscal Year 2004,
EAC’s annual appropriations have included funds for NIST support.

The Senate confirmed four Commissioners in December 2003 and EAC began operations in
January 2004, within ten months of the date mandated by HAVA. Its Fiscal Year 2004 operating
budget was $1.7 million. At the close of the fiscal year, EAC had a staff of 18.

EAC’s focus in 2004 was to assemble staff, obtain office space, arrange for administrative
support from the General Services Administration (GSA), establish a website, start clearinghouse
operations, and distribute Federal financial assistance to states. In regard to Federal financial
assistance, Congress appropriated nearly $3 billion in Fiscal Years 2003 and 2004 for payments
to States under Titles I and II of HAVA. States received the funds to upgrade their voting
systems, establish a statewide voter registration database, train election officials, and educate
voters. As EAC did not begin operations until 2004, GSA initially distributed HAVA funds to
the fifty States, Guam, Puerto Rico, the U.S. Virgin Islands, American Samoa and the District of
Columbia on EAC’s behalf in Fiscal Year 2003.

In FY 2004, EAC appointed a statutorily-required General Counsel. During Fiscal Year 2005,
EAC appointed its other statutorily-required position, the Executive Director, and an interim
Inspector General. EAC focus in subsequent years was on upgrading the VVSG, completing
required research to promote effective Federal elections and to present key data on election
practices and voting, instituting a voting system testing and certification program, auditing State
use of HAVA funds, and providing information on improving elections to its stakeholders.

In FY 2007, the full-time equivalent staffing ceiling of 24 was lifted. As of the end of FY 2009,
EAC had a full-time staff of 43 employees, including three Commissioners and their four special
assistants. Since its inception, EAC has received $2.5 billion in requirements payments based on
a formula of the number of eligible voters, $14.7 million in discretionary grant funds for Poll
Workers, Mock Elections and Election Data Collection, and transferred $17.7 million to NIST.
EAC is located in Washington, D.C.




                                                 2
                                                                                    Election Assistance Commission


Funding


                                    Enacted Appropriations by Fiscal Year
                                            (dollars in thousands)
                               2003           2004               2005      2006        2007     2008      2009        Total
EAC
EAC Salaries & Expenses
 Operations                    $2,000          $1,674       1
                                                                $11,110   $10,986    $11,313   $12,330   $12,909      $62,323
 Mock Election Grants                                                                              200      300           500
 Poll Worker Grants                                                           300                  750       750        1,800
 Transfer to NIST                                                 2,778     2,772      4,950     3,250     4,000       17,750
Election Reform Programs
                                        2
  Requirements Payments       830,000       1,489,460                                          115,000   100,000     2,534,460
  Poll Worker Grants            1,500             746                                                                    2,246
  Mock Election Org.                              199                                                                     199
  Help America Vote Act
  Foundation                    1,500             746                                                                   2,246
  Voting Tech. Research                                                                                    5,000        5,000
  Testing &Verification                                                                                    1,000        1,000
Election Data Collection                                                                        10,000                  10,000
TOTAL EAC                     835,000       1,492,824            13,888    14,058     16,263   141,530   123,959     2,637,524
GSA
Section 101& 102 Grants       649,500                                                                                  649,500
Administrative Expenses           500                                                                                      500
TOTAL GSA                     650,000                                                                                  650,000
      TOTAL EAC & GSA                                                                                                3,287,524

1/ Includes $481,092 transferred from the Federal Election Commission
2/ Carried forward to FY 2005




                                                        3
                                                                                       Election Assistance Commission




               Status of Help America Vote Act Authorization versus Appropriations
                                                   (dollars in thousands)
                                                                                              Appropriated
                                                                                               FYs 2003-
                                                                       Authorized                2009      Remaining
GSA

Election Administration Improvement (Section 101)                           324,750                   324,750                     -

Punch Card/Lever Machine Replacement (Section 102)                          324,750                   324,750                     -

Administrative Expenses for 101 and 102                                          500                       500                    -
EAC
Requirements Payments (Section 251)                                       3,000,000                 2,534,460          465,540
Voting Technology Improvement Research Grants
(Section 271)                                                                20,000                      5,000          15,000

Equipment and Technology Testing Grants (Section 281)                        10,000                           -         10,000
Pre-Election Logic and Accuracy Testing & Post-
                                                                                          1
Election Verification                                                          1,000                     1,000                    -
                                                                                          2
Operations (Section 210)                                                     82,373                    82,373                     -
                                                                                          3
Election Data Collection Grants                                              10,000                    10,000                     -
National Student and Parent Mock Election Organization
(Section 295)                                                                 1,400 **                    199            1,201
Help America Vote Act Foundation (Section 601)                                5,000                     2,246            2,754
Poll Worker Grants (Section 501)                                              5,000 **                  2,246            2,754
                                                 Total                    3,784,773                 3,287,524          497,249
1/ Authorized by P.L. 111-8
2/ $30 million per HAVA, balance per appropriations. Includes $1.8 million Poll Worker grants,$500,000 Mock Election Grants
3/ Authorized by P.L. 110-161
**Plus such sums as may be necessary in succeeding years
Note: excludes $140 million plus such sums authorized for HHS under Disability Access Section 261 and Participation Section 291




                                                            4
                                                                             Election Assistance Commission



                  State-Reported HAVA Spending as of September 30, 2009
                            Description                             Amount                    Percent
Voting Systems                                                  $1,604,367,413                   71.0
Voter Registration Systems                                          354,992,541                  15.7
Improving to the Administration of Federal Elections*               155,299,936                   6.9
Educating Voters, Training Officials and Poll Workers, and                                        3.4
Recruiting Poll workers                                              77,140,039
Improving Polling Places                                             29,765,726                   1.3
Provisional Voting                                                    3,664,550                  0.16
Uncategorized                                                        34,206,688                   1.5

Total                                                                       2,259,436,893

*Includes costs associated with preparing state plans, administering the HAVA program,
identification for first-time voters, posting voting information at polls, and language assistance.
Also, includes additional costs of training, voting equipment, and voter registration systems that
was reported collectively.


EAC Organization by Program

EAC has organized around the goals in the Strategic Plan. Below are brief descriptions of the
four offices responsible for implementing the Strategic Plan programmatic goals.

Communications

The Communications division is responsible for administration of the agency’s website,
www.eac.gov which contains over 1,000 documents with information about voting system test
plans, agency correspondence, and testimony from EAC monthly Public Meetings and hearings;
and external and internal communications such as press releases, informational videotapes on the
programs, a monthly newsletter about EAC activities and events to approximately 1,200
subscribers, and a weekly email on internal operations.

Grants Management

In FY 2009, EAC reorganized, creating a Grants Management division. The division is
responsible for distributing, monitoring, providing technical assistance to States and grantees on
use of funds, and reporting on requirements payments and discretionary grants that improve
administration of elections for Federal office. The office negotiates indirect cost rates with
grantees and resolves audit findings on use of HAVA funds.

Research, Policy and Programs

The Research, Policy and Programs division administers:

        1) the Election Management Guidelines Program to provide information on topics such as
           Ballot Design, Contingency Planning, Managing Change in an Election Office, Media


                                                      5
                                                                        Election Assistance Commission


       and Public Relations, and Developing an Audit Trail for the verification of votes, to help
       election officials promote secure, accurate, and accessible elections;

     2) the Language Accessibility Program to provide informational materials on the Federal
        election process and election terminology in languages other than English, translate the
        national voter registration form, and gather information from working groups to address
        the election needs of voters with limited or no English proficiency;

     3) provides materials to voters to facilitate successful participation in Federal elections such
        as registering to vote; and

     4) conducts election research on mandated topics.

HAVA mandates that EAC issue studies on the impact of free absentee ballot return postage on
voter participation, electronic voting and Uniformed and Overseas Citizens Absentee Voting
Act voters, the feasibility of alternative voting methods, the voting experiences of first-time
voters who register to vote by mail, and the feasibility and advisability of identifying voters by
Social Security Numbers.

Testing and Certification

The division works on EAC’s full accreditation and certification program. Staff works with
NIST to evaluate and accredit voting system test laboratories and the management of the voting
system certification process. The program assists States with voluntary certification of their
systems, supports local elections officials in the areas of acceptance testing and pre-election
system verification, increases quality control in voting system manufacturing, provides clear
procedures to manufacturers for the testing and certification of voting systems to specified
Federal standards consistent with the requirements of HAVA Section 231(a)(1).




                                                  6
Election Assistance Commission Organization Chart

Level One

The commissioners: Chair Gineen Bresso Beach; Vice Chair Gracia Hillman; Commissioner Donetta
Davidson; and one vacancy

Special assistants report to the commissioners: Sharmili Edwards to Chair Beach; Mary Ann Bradfield to
Commissioner Davidson; Maisha Leek to Vice Chair Hillman

Advisory Boards, Standards Board, TGDC

Level Two: Reporting to the Commissioners

Inspector General: Curtis Crider, Juliet Hodgkins and one vacancy

Executive Director: Tom Wilkey and Bert Benavides

Level Three: Reporting to Executive Director

Meeting Coordinator: Emily Jones

General Counsel: Vacancy, vacancy and Tamar Nedzar

Chief Financial Officer: Annette Lafferty

Chief Operating Officer: Alice Miller

Communications and Clearinghouse: Jeannie Layson, Sarah Litton and Bryan Whitener

Level Four: Reporting to Chief Operating Officer

Voting Systems and Certifications: Brian Hancock, vacancy, Matt Masterson, James Long, Josh Franklin
and Robin Sargent

Research, Policy and Programs: Karen Lynn-Dyson, Shelly Anderson, vacancy, Juliana Milhofer and Matt
Weil

Management Services: Diana Scott, Henry Botchway, LaVeeda Monroe, Beverly Russell and Chere
Pennington

Human Resources: Sheila Banks and DeAnna Smith

Level Five: Reporting to Chief Financial Officer

Budget: vacancy

Procurement: Darren Gann

Accounting: Anne Field and Nnenna Nwosu

Grants: Mark Abbott, Devon Romig and vacancy
                                                                     Election Assistance Commission




I.B. PERFORMANCE GOALS, OBJECTIVES AND RESULTS

Recognizing the need to formalize its planning, reporting and execution activities, EAC began
development of its first five year Strategic Plan 2009-2014 in March 2008. The plan was
reviewed by the Office of Management and Budget, and presented to EAC’s Board of Advisors
and Standards Board for comment, as required by HAVA. EAC adopted the Plan in March
2009.

How EAC Assesses Performance

EAC has five strategic goals:

       1. Communicate timely and accurate information on the effective administration of
          elections for Federal office and on the operations and services offered by EAC.
       2. Deliver and manage Federal funds effectively.
       3. Identify and develop information on areas of pressing concern regarding the
          administration of elections for Federal office, issue recommended improvements,
          guidance, translations, and best practices as required by HAVA, and carry out
          responsibilities under the National Voter Registration Act.
       4. Build public confidence in elections by testing and certifying voting systems to
          improve system security, operation, and accessibility.
       5. Achieve organizational and management excellence.

The EAC Strategic Plan objectives listed below describe in general terms the results needed to
accomplish its Strategic Goals. Outcomes measure the effect program outputs have on their
stakeholders. Outputs are quantifiable targets that directly measure the results of a program. A
program may have multiple outputs but each output is associated with one program.
Performance measures are quantifiable, documentable, representations of a capacity, process or
outcome that is relevant to the assessment of performance.

Strategic Plan Goal 1: Communicate timely and accurate information on the effective
administration of elections for Federal office and on the operations and services offered by
EAC.

         Outcome: The Congress, Federal agencies, State and local election officials and
         the public receive reliable, accurate, and non-partisan information about
         administering, conducting and participating in Federal elections and how,
         where, and when Americans vote.

Goal 1’s aim of communication of timely and accurate information is the responsibility of the
Office of Communications and Clearinghouse. The goal will be achieved via three strategic
objectives:
   Strategic Objectives
   1. Operate the EAC Clearinghouse effectively.
        Performance measures:



                                                8
                                                                    Election Assistance Commission


              Issue clearinghouse policy in six months [from March 2009]
              Post applicable information on the web-based Clearinghouse within 24 hours of
               receipt.
              Distribute at least one email update per month to stakeholders about the web-
               based clearinghouse.

   2. Respond to outside requests about the EAC timely and accurately.
      Performance measures:
          Issue policies and procedures to process requests from outside the agency by
             September 2009.
          Distribute media and Congressional inquiry and response log to EAC staff on a
             daily basis.
          Respond to FOIA requests in accordance with requirements.
          Respond to 75 percent of non-FOIA requests within 72 hours.

   3. Convey the results of EAC operations and accomplishments.
      Performance measures:
          Provide weekly updates about EAC activities and election administration issues to
             EAC employees.
          Produce an annual FOIA report to chronicle requests and responses.
          Issue quarterly press releases summarizing EAC activities.
          Provide regular briefings regarding EAC activities to Congressional staffers.
          Produce the annual report of EAC activities to Congress by January 1 of each year
             for the preceding year ending September 30.
          Issue at least 12 EAC newsletters per year.

Goal 1 FY 2009 Accomplishments

The Communications division has been instrumental in FY 2009 in improving communication
about EAC’s voting system Testing and Certification program, ensuring that election officials
are getting the information they need. A Testing and Certification Voting System Reports
Clearinghouse, where Communications staff post and distribute voting system reports and
studies that have been conducted or commissioned by a State or local government. To be
considered for posting on the EAC website, a State or local government official submits the
report to the EAC Chair or Executive Director and certifies that the report reflects their
experience operating voting systems or implementing EAC's voluntary voting systems
guidelines. All system test plans, test reports including discrepancies, and certification
information are posted to the website.

Using an interagency agreement with the U.S. Department of Agriculture, the division produced
poll worker and election official training videos, available on the eac.gov website and on
YouTube.

In 2009, in order to accelerate establishment of a Clearinghouse of information on Federal
elections and to ensure a cost-effective contract, EAC recompeted its website and Clearinghouse
contract. With the new contract, EAC will pursue its goal to become the “go to” place for trusted



                                               9
                                                                    Election Assistance Commission


source information about elections and election administration. In 2010, EAC intends to connect
its stakeholders to a new separately identifiable Clearinghouse on the EAC website. The new
Clearinghouse will better disseminate information, data, and reports from outside sources, as
well as, EAC published materials for easy access by Federal, State, and local election officials
and voters.

Strategic Plan Goal 2: Deliver and manage Federal funds effectively.
         Outcome: States and other recipients promptly and accurately receive Federal
         funds administered by EAC and use the funds appropriately to improve the
         administration of elections for Federal office.

   Strategic Objectives
   1. Accurately and timely disburse Federal financial assistance administered by EAC.
       Performance Measures:
        Publish program handbook in Fiscal Year 2009.
        Disburse Requirements Payments and award discretionary grants within established
           timeframes.
        Submit State plans for publication in the Federal Register within 30 days of receipt of
           each plan.
        Submit payment requests to GSA within 10 days of receipt of acceptable
           requests/certifications.

   2. Effectively monitor Federal financial assistance administered by EAC.
      Performance Measures:
       Review financial and performance reports and notify recipients of reporting
          anomalies or failure to file within 30 days of knowledge of such conditions, in writing
          in all cases and by telephone as time permits, to offer assistance and answer
          questions.
       Resolve 100 percent of audit findings within established time frames.
       Conduct site visits to at least three high priority grantees each year.
       Negotiate indirect cost rates within 30 days of receipt of acceptable indirect cost
          proposals.
       Issue the annual report to Congress on the expenditure of HAVA funds by July 15 of
          each year.

   3. Provide technical assistance and guidance on the management of Federal financial
      assistance administered by EAC to reduce the risk of inappropriate use of funds and
      accounting errors.
      Performance Measure:
       Offer at least one workshop per year.

Goal 2 is administered by the Grants Management unit and the Office of the Inspector General
(OIG).




                                              10
                                                                     Election Assistance Commission


Goal 2 FY 2009 Accomplishments

In FY 2009, Public Law 111-8 included $100.0 million in FY 2009 to help States improve the
administration of Federal elections. The funds are known as Requirements Payments and are
authorized under Section 251 of HAVA. Requirements Payments are used to meet the
requirements of Title III of HAVA, including voting system standards, voting information
requirements, provisional voting, statewide voter registration lists, and identification
requirements for voters who register by mail. States may also use Requirements Payments to
improve the administration of Federal elections once they certify that the State has implemented
the requirements of Title III or that the State will use only up to the minimum payment amount
for the administration of federal elections. Each year, EAC reports to Congress on how the
States have spent HAVA funds. EAC distributed $26.3 million of the $100.0 million
appropriated by the end of September 2009.

       South Dakota received a $500,000 requirements payment in FY 2009. The funds
       will be used by the State’s 66 counties for maintenance of the touch screen voting
       machines required by HAVA for individuals with visual or other disabilities,
       insurance and programming.

In FY 2009, EAC awarded grants in two discretionary programs funded by Salaries and
Expenses funds: College Poll Worker recruitment and training and high School Mock Elections.
Thirteen grants were awarded to colleges, universities, and nonprofit organizations totaling
$750,000 for College Poll Worker grants. One award winning grantee is Salish Kootenai College
in Montana. The College is partnering with Flathead Valley Community College, and the Lake
and Flathead County elections offices to recruit student workers to assist voters who speak the
Salish and Kootenai languages and those voters who are deaf. The program received a $66,008
grant to recruit and train 200 students using an innovative multi-media recruitment program
developed by students.

        “This grant program will help us recruit the next generation of poll workers by
       focusing on recruiting and educating a new generation of Americans about the
       importance of civic participation on Election Day.”
                                      Paula Robinson, Flathead County Clerk & Recorder

EAC awarded seven Federal Student Mock Election Grants to State and local election offices,
and regional and national nonprofit organizations totaling $300,000. The grants will support
efforts to allow students to participate in a simulated election, often using actual voting
equipment and realistic ballots. For example, the Miami Date County Elections department will
sponsor mock elections reaching over 100,000 students, with 40 targeted high schools serving as
precincts and students working as poll workers.

Strategic Plan Goal 3: Identify and develop information on areas of pressing concern
regarding the administration of elections for Federal office and issue recommended
improvements, guidance, translations, and best practices as required by HAVA, and carry
out responsibilities under the National Voter Registration Act.



                                               11
                                                                        Election Assistance Commission


         Outcome: As a result of this goal: 1) the election community and other key
         stakeholders improve the administration of elections for Federal office on the
         bases of pertinent, impartial, timely, and high-quality information,
         recommendations, guides and other tools on election and voting issues and 2)
         eligible citizens use the mail voter registration application to register to vote,
         register with a political party, or report a change of name, address, or other
         information.

   Strategic objectives:

   1. Complete research on relevant issues that improve the administration of elections for
      Federal office and expeditiously report on critical administration subjects and election
      data.
      Performance Measures:
       Start 100 percent of planned and funded projects each year.
       Meet milestones for the completion of research projects in accordance with schedules
          and deliverable each year.
       Disseminate all completed research project reports to stakeholders.

   2. Identify and collect required and useful data on election administration practices and on
      voting methods and demographics and make recommendations for improving the quality
      of practices, methods, and data.
      Performance Measures:
       Establish a baseline in Fiscal Year 2009 on the accuracy and completeness of data
          reported by States in response to EAC surveys. Increase the accuracy and
          completeness of reported data in each of the succeeding years.
       Include recommendations to improve election administration and data to the Congress
          in the annual report on the Election Day survey.
       Issue required reports to Congress by statutory deadlines.

   3. Issue guidance and administer programs that provide timely and useful information to
      election officials and voters.
      Performance Measures:
       Complete the “Voters Guide to Federal Elections” in languages currently covered
          under the minority language provisions of the Voting Rights Act by September 2009.

   4. Update and maintain a national mail voter registration application and report to the
      Congress as required by NVRA.
      Performance Measures:
       Issue the biennial report on the impact of NVRA by June 30 of 2009.

Goal 3 FY 2009 Accomplishments

In FY 2009, the Research, Policy and Programs Division developed a listing of potential research
projects with timelines to guide staff work through 2012. Progress has been made toward the
completion of several projects noted in the research schedule, many of which are mandated by



                                                 12
                                                                      Election Assistance Commission


HAVA and/or authorized by Congress. The list will continue to be revised in accordance with
EAC and/or congressional priorities. EAC receives input on scheduling of mandated studies
from the Standards Board and from the Research Subcommittee of the Board of Advisors.

Consistent with the list of potential research noted above, the Research Division administered its
biennial election survey, and produced and disseminated two congressionally-mandated reports
by their statutory deadlines (the Impact of the National Voter Registration Act and the $10.0
million Election Data Collection Grant Program). A Statutory Overview report on State election
laws was developed as well.

The Research Division also initiated an evaluation project to assist with developing a baseline for
measuring stakeholder use of EAC educational products to improve the administration of
elections for Federal office. Research efforts continue on the HAVA-mandated study, Vote
Count/Recount, and work on two others was initiated at the end of FY 2009, on Election
Administration in Urban and Rural Settings and the Cost of Elections.

Work completed in FY 2009 includes:

      2008 Election Administration and Voting Survey
      Impact of the National Voter Registration Act
      Election Data Collection Grant Program report and
      Statutory Overview report.

The Research office continues to identify and collect required and useful data on election
administration while making recommendations for improving the quality of data collection. A
conference call was held in FY 2009 with State and local election officials to discuss the 2008
survey and garner their input on ways to make future versions of the survey more conducive to
their data collection and submission needs. A draft of the 2010 Election Administration and
Voting Survey was released for public comment in FY 2009.

The Research Division’s Election Management Guidelines program released four Quick Start
Management Guides in October 2008 on Serving Voters in Long-Term Care Facilities,
Provisional Ballots, Recounts, and Canvassing and Certifying an Election. During the year, staff
worked on five Election Management Guidelines chapters. In September 2009, staff conducted
three working groups for new chapters and Quick Starts on Technology in Elections, Election
Office Management and Accessibility.

The Research Division’s Language Accessibility Program has been working to meet its strategic
goal of assisting election officials in meeting the needs of language minority proficiency voters.
In FY 2009 the Spanish Glossary of Key Election Terminology was redesigned. The new
glossary is in line with the design of the five Asian language glossaries. In October 2008, EAC
developed “A Voter’s Guide to Federal Elections” in English, Spanish, Chinese, Japanese,
Korean, Vietnamese, and Tagalog.

EAC’s Strategic Plan includes a performance measure of beginning National Voter Registration
Act (NVRA) of 1993 rulemaking. A Federal Register Notice transferring the NVRA


                                                13
                                                                      Election Assistance Commission


Regulations from the Federal Election Commission to EAC was published on July 29, 2009.
The transfer became effective, August 28, 2009. An expedited Paperwork Reduction Act
clearance request was submitted to the Office of Management and Budget (OMB) on August 28,
2009 for NVRA Regulations for the Voter Registration Application and NVRA Regulations for
Data Collection. Both submissions were approved, and OMB Control Numbers were assigned
on September 3, 2009.

Strategic Plan Goal 4: Build public confidence in elections by testing and certifying
voting systems to improve system security, operation and accessibility.

         Outcome: Voting equipment operates more reliably and securely and is more
         accessible to the disabled. States use EAC testing and certification program to
         ensure voting systems meet standards.

   Strategic objectives:

   1. Develop and update the voluntary voting system guidelines.

   2. Provide for the accreditation and revocation of accreditation of independent, non-Federal
      laboratories qualified to test voting systems to Federal standards.
      Performance Measures:
       Complete accreditation reviews for all laboratories recommended to EAC by NIST
          and for all emergency actions within 90 days.
       Test and document the results of the review of compliance with procedures by 100
          percent of accredited laboratories every 2 years.

   3. Administer the testing, certification, decertification, and recertification of voting system
      hardware and software by accredited laboratories.
      Performance Measures:
       Test 100 percent of systems applying and qualifying for testing each year.
       Respond to requests for interpretations of voting system standards within 45 days.

Goal 4 FY 2009 Accomplishments

In addition to the ongoing work of the Communications Division to make EAC constituents
aware of Certification Division activities, the Certification Division began issuing its own
monthly email newsletters specifically focusing on the Certification Division in 2009. The
newsletter is distributed to approximately 400 State and local election officials, advocacy groups,
Voting System Test Laboratories (VSTLs), voting system manufacturers and Congressional
staff.

The Certification Division, working with NIST, drafted and updated the current version of the
2005 Voluntary Voting System Guidelines (VVSG) (now entitled 2005 VVSG Version 1.1) in
2009. The draft was published for a 120 day public comment period beginning June 1, 2009 and
ending September 28, 2009. Staff are currently reviewing over 300 comments received from the
public.



                                                14
                                                                     Election Assistance Commission




In 2009, the EAC timely re-accredited SysTest Laboratories and iBeta Quality Assurance. In
addition to the semi-annual re-accreditation process, both labs underwent a required EAC Policy,
Procedures and Practices Review pursuant to the EAC Laboratory Accreditation Program
Manual. Wyle Laboratories and Ciber, Inc. will undergo re-accreditation review and the
required on-site Policy, Procedures and Practices Review during 2010.

The Certification Division drafted internal Standard Operating Procedures generated by the
requirements of the Testing and Certification Program Manual. In addition to certifying three
voting systems, EAC approved five test plans for voting systems in 2009. Manufacturing facility
reviews will be conducted in early FY 2010, following late FY 2009 receipt of the voting system
certifications. Field Reviews will be conducted in FY 2010 for EAC certified voting systems
that experience election related anomalies.

Strategic Plan Goal 5 consists of one clear-cut objective: Implement a high performance
organization.

In order to achieve the goal, EAC will focus on achieving a clean audit opinion, providing
accurate timely information, and moving toward integration of budget and performance as
prescribed by the President’s Management Agenda.

       Performance Measures:
        Implement 90 percent of the OIG audit recommendations within agreed upon
          timeframes.

Goal 5 is administered by the Commissioners, the Standards Board, the Board of Advisors, the
Technical Guidelines Development Committee, Executive Director, Chief Operating Officer and
Chief Financial Officer with support from the Offices of the General Counsel and Administration.

Performance Data Collection and Validation

Managing for results and producing an Annual Performance Plan requires valid, reliable and
high-quality performance measures and data. EAC is committed to the continuous improvement
of its performance and financial management data. To this end, EAC is working on
recommendations for a data validation system, mandatory source documentation, and
documentation of calculation methodology for estimates. Performance indicators are supported
by documentation. An independent reviewer evaluated EAC business processes related to
implementation of the four programmatic goals in the Strategic Plan. The reviewer made
recommendations on procedures EAC can implement to provide reasonable assurance that the
reported performance data is relevant and reliable. The recommendations will be implemented in
FY 2010.

Summary Performance Information

EAC made strides in speeding up certification of voting systems: between February and August,
three voting systems were certified. In order to improve communications with stakeholders,
EAC instituted a Testing and Certification Voting System Reports Clearinghouse on its website.


                                               15
                                                                      Election Assistance Commission


EAC issued a report on Voter Registration, Quick Start Management guides on administering
Federal elections, best practices for voter information web sites; held roundtable discussions on
Elections, Election Office Management and Accessibility; and awarded 13 Poll Worker grants
and seven Mock Election grants

Program Performance Indicators

The following table presents key EAC FY 2009 performance data. Financial reporting is
included to highlight the soundness of EAC’s financial systems. As much detailed performance
information as possible will be presented, and variances discussed, in the FY 2009 Annual
Performance Report due February 15, 2010 along with the FY 2011 Congressional Justification.


                        EAC FY 2009 Performance Summary
                                                  Type of
Program             Performance Indicator         Indicator              Planned       Actual
Strategic Goal 1: Communicate
                                                                                    In Final
            Issue Clearinghouse policy                      Output      Final       Draft
          Issue Policies/Procedures to process requests                             In Final
          from outside EAC                                  Output      Final       Draft
Strategic Goal 2: Fund and Oversee
          Publish Grants Program Handbook                   Output      Final       Completed
          Issue report on expenditure of HAVA funds         Output      Final       In Draft
Strategic Goal 3: Study, Guide, Assist
          Complete Voter's Guide to Federal Elections                               Completed
          in Voting Rights Act minority languages           Output      Final       Oct. 2008
                                                                                       96%
          Establish baseline on Election Day Survey                     Baseline     response
          responses accuracy and completeness               Output      %               rate
Strategic Goal 4: Test and Certify
            Test 100 percent of systems qualifying for
            testing each year (3 systems)                   Output      100%        100%
                                                                                    52.4 days
          Respond to requests for interpretations of                                (40% on
          voting system standards within 45 days            Output      45 days     target)
Strategic Goal 5: Manage
            Unqualified financial statement audit opinion
            by FY 2010                                      Outcome No               Yes




                                                16
                                                                       Election Assistance Commission


Portfolio Analysis

Since 2004, EAC has received funds in three appropriations: Salaries and Expenses, Election
Reform Programs, and for FY 2008 only, Election Data Collection Grants. The purpose of the
Data Collection grants of $2.0 million each to five States was to measure the costs of improving
the collection of election data at the precinct level during the 2008 Federal election. In FY 2009,
the Salaries and Expenses appropriation of $17,959,000 funded the $4.0 million transfer to
NIST, $750,000 for College Poll Worker recruitment and training grants, $300,000 for Mock
Elections for high school students, salaries, travel, rent and telecommunications, printing,
contracts, supplies and equipment.


I.C. FINANCIAL RESULTS

This analysis is intended to help readers understand EAC’s financial results, position and
condition as portrayed in the financial statements and notes to the statements. It explains
changes in assets, liabilities, costs, revenues, obligations, and outlays; includes comparisons of
FY 2008 to FY 2009; and discusses the relevance of balances and amounts in the financial
statements and notes. The changes are discussed in the context of whether the year’s activities
improved or deteriorated the agency’s financial position. Since EAC depends on Congress for
its funds, future financial position will be dependent on annual appropriations.

Budgetary Resources

The majority of EAC’s available budgetary resources are for Requirements Payments in the
Election Reform Program appropriation. Budgetary resources are the amounts available to enter
into new obligations and to liquidate them. Budgetary resources include new Budget Authority
from appropriations and unobligated balances of Budget Authority provided in previous years in
no year Election Reform Program accounts. For FY 2009, the available budgetary resources
were $129.0 million, a drop of 11.5% or $16.8 million from FY 2008, restated. A decrease in
annual appropriations received in FY 2009 as compared to FY 2008 resulted in this change.

Appropriations received for FY 2009 decreased $17.6 million from FY 2008. In FY 2009
EAC’s appropriations totaled $123.9 million as opposed to $141.5 million in FY 2008.
Requirements Payments appropriations were reduced $15.0 million and other grant programs
were reduced $3.1 million.




                                                 17
                                                                      Election Assistance Commission



                                    Appropriations Received




          150,000,000
                                                                       Disability Research Grant
          125,000,000                                                  Voting System Logic Grant
          100,000,000                                                  College Poll Worker Grants
                                                                       Mock Election Grants
   ($$)    75,000,000
                                                                       Data Collection Grants
           50,000,000
                                                                       Requirement payments
           25,000,000                                                  Salaries and Expenses

                    -
                         FY 2009              FY 2008




In FY 2008, restated, EAC recorded $50.7 million of unspent HAVA Section 102 payments paid
to the States in FY 2003 and FY 2004. These funds were originally disbursed by the GSA acting
as Administrator. Any funds remaining unspent as of November 1, 2010, will return to the EAC
to be disbursed as HAVA Section 251 Requirements Payments. Of these amount $34.7 million
remain unspent as of September 30, 2009.

The status of available budgetary resources as represented in the 2009 and 2008 Statement of
Budgetary Resources is as follows:


                    Budgetary Resources             2009         2008
            Obligations Incurred                $114,957,639 $138,170,196
            Unobligated Balance – Apportioned      7,452,047      766,190
            Unobligated Balance – Not Available    6,546,853    6,795,762
            Total Budgetary Resources           $128,956,539 $145,732,148


Obligations Incurred decreased $23.2 million primarily as a result of the disbursement of FY
2009 Requirements Payments and disbursements of FY 2008 Requirements Payments.
Unobligated Balance – Apportioned increased $6.6 million as an appropriation for a $5.0 million
grant for disability research and an appropriation for a $1.0 million grant for voting system logic
research were not awarded as of September 30, 2009.

Financial Position

The EAC underwent its first financial statement audit in FY 2008, receiving a disclaimer.
During FY 2009, EAC completed actions to address most of the issues raised in the FY 2008
financial audit. As a result of this process, EAC found misstatements in the agency’s 2008
financial reports and have restated them for the 2009 Annual Financial Report. The changes
made to the FY 2008 financial reports and the processes leading to those changes have been


                                                 18
                                                                        Election Assistance Commission


reviewed by management and are detailed in Note 15 in the Notes to the Financial Statements.
The restated FY 2008 Financial Statements are presented and discussed throughout this report.

Assets

The EAC had $195.3 million in total assets as of September 30, 2009. This is an increase of $5.8
million. Fund Balance with Treasury increased $24.4 million largely as a result of the net
increase from new appropriations and disbursements for Requirements Payments from years FY
2008 and FY 2009. EAC received $100,000,000 in FY 2009 appropriations for Requirements
Payments of which $26.3 million were disbursed. In addition, $57.0 million in FY 2008
Requirements Payments were disbursed in the current year. The EAC also has $7.0 million in
FY 2009 grant appropriations that have not been disbursed.

Advances and Prepayments decreased $18.4 million in FY 2009 with a balance of $36.8 million
as of September 30, 2009. In FY 2008, EAC recorded $50.7 million in HAVA Section 102
Advances with the States still unspent as of September 30, 2008. In FY 2009, the States reported
as having spent $16.0 million of these funds. Accordingly, EAC reduced outstanding advances
on the Balance Sheet and recorded $16.0 million in program operating expense on the Statement
of Net Costs. Summary asset data is presented below:

                                        Assets
                                                                                         %
                                  FY 2009           FY 2008        Difference         Change
 Fund Balance with Treasury      $157,884,882     $ 133,466,533   $24,418,349          18.30%
 Advances and Prepayments          36,790,142        55,210,405   (18,420,263)        -33.36%
 Other Assets                         618,266           824,583      (206,317)        -25.02%

                                $ 195,293,290   $ 189,501,521      $ 5,791,569         3.05%

Liabilities

EAC had total liabilities of $8.9 million as of September 30, 2009. This is a $7.3 million
increase. Accounts Payables increased $7.2 million in FY 2009. As of September 30, 2009,
EAC had received two completed certifications from the States for Requirements Payments.
These payments had not yet been disbursed as of September 30, 2009 and were therefore
accrued. They totaled $6.5 million.


                                         Liabilities
                                                                                          %
                                    FY 2009              FY 2008        Difference      Change
 Accounts Payables                $  8,332,010         $  1,159,670    $ 7,172,340      618.48%
 Accrued Payroll and Benefits          290,035              267,713          22,322       8.34%
 Unfunded Leave                        261,880              185,889          75,991      40.88%
                                  $   8,883,925        $   1,613,272   $ 7,270,653      450.68%




                                                  19
                                                                      Election Assistance Commission


Net Position

Net position, which is the sum of Unexpended Appropriations and Cumulative Results of
Operations decreased in FY 2009 $1.5 million. Cumulative Results of Operations of $7,765 as
of September 30, 2009 is the accumulated difference between expenditures and financing
sources since the inception of the agency. Unexpended Appropriations decreased $1.2 million.
The appropriations used in FY 2009, including obligated funds from prior years and the transfer
to the National Institute of Standards and Technology of $4.0 million, exceeded the
appropriations received for FY 2009.

                                       Net Position
                                                                                       %
                                       FY 2009          FY 2008       Difference    Change
 Unexpended Appropriations          $ 186,401,600    $ 187,595,489   $(1,193,889)    -0.64%
 Cumulative Results of Operations           7,765          292,760      (284,995)   -97.30%
                                    $ 186,409,365    $ 187,888,249   $(1,478,884)    -0.79%



Results of Operations

The EAC, as presented in its Statement of Net Costs, reports its results of operations within four
programs: Communications, Fund and Oversee, Research, Policy and Programs and Testing and
Certification. Costs specifically identified with each of these programs such as assigned
personnel costs and specific program contract costs are allocated to the program directly. Other
general agency overhead costs such as rent, human resource costs and financial management
costs are allocated on either a per employee basis or a percent of overall costs method. This
methodology is outlined in the EAC’s Cost Allocation Model and is reviewed each year to
ensure the accurate allocation of expenses to each program.

The Fund and Oversee program reports the expenditures for the Requirements Payments and the
other EAC grants. In years in which EAC receives significant appropriation for these HAVA
funds, this program, Fund and Oversee, typically exceeds the other programs in overall costs.
The results of operations for FY 2009 of $121.6 million increased from FY 2008 by $108.4
million, primarily reflecting the costs of the Requirements Payments and costs of the FY 2008
Data Collection grant program. Collectively, FY 2008 and FY 2009 Requirements Payments
reflected in the FY 2009 results of operations total $84.9 million. Data Collection grant
payments for FY 2009 were $6.6 million. In addition, the EAC recognized as program expenses
$16.0 million of HAVA Section 102 expenditures made by the States in FY 2009. General
salaries and other expenses totaled $13.4 million in FY 2009 and $10.4 million in FY 2008 an
increase of $3.0 million.




                                                20
                                                                       Election Assistance Commission




                            Results of Operations by Program
                                                                                            %
                                     FY 2009            FY 2008           Difference      Change
 Communications                  $   1,994,125        $  1,543,834      $     450,291      29.17%
 Fund and Oversee                  113,042,449           6,598,961        106,443,488    1613.03%
 Research, Policy and Programs       2,972,123           2,300,992            671,131      29.17%
 Testing and Certification           3,578,173           2,770,190            807,983      29.17%
                                 $ 121,586,870        $   13,213,977    $ 108,372,893     820.14%


Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b). While the
statements have been prepared from the books and records of the entity in accordance with
GAAP for Federal entities and the formats prescribed by OMB, the statements are in addition to
the financial reports that are used to monitor and control budgetary resources, which are prepared
from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.

I.D. ANALYSIS OF CONTROLS, MANAGEMENT SYSTEMS, AND LEGAL
COMPLIANCE

Internal Control Environment

EAC is subject to numerous legislative and regulatory requirements that promote and support
effective internal controls. EAC believes that maintaining integrity and accountability in its
programs and operations is critical for good government, demonstrates responsible stewardship
over assets and resources, ensures high-quality, responsible leadership, ensures the effective
delivery of services to customers, and maximizes desired program outcomes.

EAC has developed and implemented management, administrative and financial system controls
that reasonably ensure: 1) programs and operations achieve intended results efficiently and
effectively; 2) resources are used in accordance with the mission of the agency; 3) programs and
resources are protected from waste, fraud and abuse; 4) program and operations activities are in
compliance with laws and regulations; and 5) reliable, complete and timely data are maintained
and used for decision-making.

The agency, during FY 2009, with the hiring of a CFO/Budget Director and Director of
Accounting who is a CPA, and adoption of a five year Strategic Plan, implemented controls that
ensure that transactions are executed in accordance with budgetary and financial laws and other
requirements, consistent with the purposes authorized, and are recorded in accordance with
Federal accounting standards. EAC was able, by the end of the fiscal year, to ensure that assets
are properly acquired and used, safeguarded to deter theft, accidental loss or unauthorized


                                                 21
                                                                     Election Assistance Commission


disposition, and fraud. Where the agency has work to do, taking into consideration the newly
adopted Strategic Plan, is collecting performance data and ensuring that it is adequately
supported. To this end, EAC contracted for an independent review of: 1) its strategic plan
performance measures and systems to collect the data and 2) risk levels associated with
providing inaccurate information for internal decision-making.

During FY 2010, EAC will work on implementing internal control actions described in its new
Internal Control Procedures. Each manager will be familiar with internal control requirements
and responsibilities and be able to sign statements of assurance that controls are in place and
functioning.

Laws that help EAC improve the management of its financial operations and programs are as
follows:

Federal Manager’s Financial Integrity Act

The Federal Manager’s Financial Integrity Act (FMFIA) of 1982 requires Executive Branch
agencies to establish, maintain, and assess internal controls to ensure that agency program and
financial operations are performed effectively and efficiently. To help ensure that controls have
been identified and implemented, the heads of agencies must annually evaluate and report on the
effectiveness of the internal control (FMFIA Section 2) and financial management systems
(FMFIA Section 4) that protect the integrity of Federal programs.

During FY 2008, the EAC evaluation was limited to identifying weaknesses disclosed in reports
issued by the General Accountability Office and by the EAC Office of Inspector General,
including the weaknesses identified through the year’s financial statement audit. In FY 2009,
EAC also used the results of self-assessments of financial management internal controls.

A material weakness was identified by management in FY 2008 concerning EAC’s lack of
effective written policies and procedures in the areas of property, personnel, travel, information
technology, research, and communications. The pertinent policies and procedures are in draft
and in legal review. The following chart shows FY 2008 planned corrective actions compared to
actual completion dates.




                                               22
                                                                            Election Assistance Commission


                                                                                 Target          Actual
                                                                               Completion      Completion
                           Corrective Actions                                     Date            Date

Develop an EAC Manual containing all necessary administrative and               1/31/09          Pending
program procedures.
Implement a strategic plan                                                      12/31/08        03/09/09
Implement the applicable requirements of Office of Management and               09/30/09         Pending
Budget Circular A-123, Management’s Responsibility for Internal Controls.                       Quarter 1
                                                                                                 FY 2010
Re-evaluate the current organizational structure and clearly define areas       01/15/09        03/09/09
of authority and responsibility, and hierarchy for reporting.
Review and perform a periodic reconciliation of EAC financial activities        12/31/08        06/30/09
with GSA’s accounting records.
Define areas of authority and responsibility, and hierarchy for reporting       09/15/09        09/18/08
(including the roles of the Commissioners and the Executive Director).
Hire staff with federal budgeting experience or provide training to             09/30/09        11/10/08
appropriate staff in the Office of Administration.

  On September 18, 2008, EAC adopted a Roles and Responsibilities document clearly defining
  the roles of the Commissioners and the Executive Director. On March 9, 2009, EAC adopted its
  Strategic Plan covering the period of FY 2009 through FY 2014. The Plan includes an
  organization chart which clearly defines areas of authority and responsibility and the hierarchy
  for reporting. With the hire of a Budget Director who started on November 10, 2008 and an
  Accounting Director on April 13, 2009, EAC was able to work on developing and finalizing
  financial management policies and procedures. By June 30, 2009, EAC was able to produce
  reliable financial statements and implement a schedule of periodic reconciliations.

  Corrective actions remaining to be taken include: 1) finalization of non-financial program and
  administrative policies and procedures, and 2) implementation of all applicable internal control
  requirements. Implementation of an internal control program is discussed below.

  Table 1 presents the material weaknesses identified by management for FY 2008 as beginning
  balances. Ending balances reflect status after resolution of findings as of September 30, 2009.




                                                    23
                                                                           Election Assistance Commission


TABLE 1

         EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)

         Statement of Assurance                 Unqualified

                                                Beginning                                      Ending
No.           Material Weaknesses                Balance      New   Resolved   Consolidated    Balance
 1       Lack of Policies & Procedures             1           0       0             0             1
         Incomplete Performance and
 2
         Accountability Report (PAR)               1           0       1             0             0
         Insufficient Resources and
 3       Personnel with Appropriate Federal
         Accounting and Reporting Skills           1           0       1             0             0
 4       Outstanding Accounting Issues             1           0       1             0             0
         Lack of an Integrated Financial
 5
         Management System                         1           0       1             0             0
         Ineffective Financial Statement
 6
         Preparation                               1           0       1             0             0
 7       Lack of Reconciliation and Analysis       1           0       1             0             0
         Accounting Error Related to Advance
 8
         Payments                                  1           0       1             0             0
 9       Lack of Support for Grant Accounting      1           0       1             0             0
 10      Weak Funds Control                        1           0       1             0             0
         Lack of Federal Managers’ Financial
 11      Integrity Act Compliance and
         Reporting                                 1           0       0             0             1

           TOTAL WEAKNESSES                        11          0       9             0             2

During FY 2009, EAC made tremendous progress in resolving findings from its first financial
statement audit in FY 2008:

        Financial management policies and procedures were finalized;
        Performance measures in the Strategic Plan are addressed in the Agency Financial Report
         for FY 2009;
        Financial operations were realigned and a Chief Financial Officer department was
         established with experienced financial management staff, including a CPA;
        All outstanding accounting issues were resolved, including potential Anti-Deficiency Act
         and Purpose Statute violations;
        Financial statements were produced in conformance with generally-accepted accounting
         principles;
        A schedule of reconciliations was established and followed;
        Funds control measures were implemented;
        Risks in financial management were assessed; and


                                                     24
                                                                       Election Assistance Commission


      Revenues and expenditures were properly recorded and accounted for to permit the
       preparation of reliable financial reports and to maintain accountability over assets.

Challenges for FY 2010 include: 1) finalizing effective written policies and procedures in the
areas of property, personnel, travel, information technology, research, and communications (as
mentioned above); 2) implementing a robust internal control program; and 3) providing monthly
status of funds reports to directors.

During FY 2009, EAC began the process of designing, implementing, and assessing internal
controls in full compliance with Office of Management and Budget Circular A-123,
Management’s Responsibility for Internal Control, and FFMIA. A-123 requires the managers of
Federal agencies to take responsibility for assessing internal controls over financial reporting.
EAC contracted for independent review of the key business processes impacting financial
operations and the financial statements, and business processes with no material impact on the
financial statements but which have some potential for risk or exposure for the agency.

In November and December 2009, EAC plans on conducting agency-wide internal control
training, emphasizing identification of risks to accomplishment of the agency’s mission and
program results. Each agency director will be responsible for risk assessment for their assessable
unit, and for remediation activities for identified risks, in conjunction with CFO staff. As
mentioned earlier, performance measurement systems were independently assessed. The
assessment revealed that existing performance measures are good indicators as to whether
programs and operations achieve intended results. Recommendations from the assessment,
including control activities needed to achieve program objectives and control activities that will
improve accuracy of performance data, will be implemented in FY 2010 so that EAC’s
performance metric reports are reliable and measure the right activities.

A challenge exists in providing financial reports to EAC directors on a monthly basis. Since
GSA records financial transactions on EAC’s behalf, there is a lag between when financial
documents are signed and submitted to GSA and when they are recorded in Pegasys. During FY
2009, EAC established office- and program-specific location codes in place of a single code for
the agency. The agency then underwent a lengthy and labor-intensive effort to recode financial
documents to the new codes. Once the recode was complete, all financial documents were
checked to ensure they were coded to the correct location and program. A report to account for
the recording lag was developed. We expect to be able to provide regular financial reports at the
office location level, rather than at the agency level and on-demand, in FY 2010.

Management is working to foster a culture of accountability among staff. The agency is seeking
to improve staff satisfaction ratings and achieve management excellence through improved
internal controls and human resource initiatives.

Entity-Wide Security Program:

EAC recognizes that effective security management is critical to EAC’s mission. The ability to
ensure confidentiality, integrity, and availability of its information assets in order to minimize
risks of inadvertent or deliberate misuse, fraud or destruction is essential.



                                                 25
                                                                        Election Assistance Commission




Table 2 identifies the significant deficiencies identified in the FY 2008 audit of the Entity-Wide
Security Program. The ending balances provide status of the deficiencies as of September 30,
2009:

TABLE 2

                SIGNIFICANT DEFICIENCIES IN ENTERPRISE-WIDE SECURITY PROGRAM

                                               Beginning                                     Ending
No.           Significant Deficiency            Balance    New   Resolved    Consolidated    Balance
      Lack of an internally developed
 1    agency-wide information security
      program.                                    1         0       0              0             1
      Lack of an inventory of systems and
 2
      applications.                               1         0       1              0             0
      Lack of an adequate security
 3
      management structure                        1         0       0              0             1
      Certification and Accreditation of
 4    general support systems has not been
      performed.                                  1         0       1              0             0
      Third party information security
      examinations and inspections are not
 5    monitored for inclusion within the
      service provider’s Plan of Actions and
      Milestones.                                 1         0       1              0             0

      TOTAL                                       5         0       3              0             2

During FY 2009, EAC conducted an inventory of systems and applications, received
Certification and Accreditation of general support systems from the General Services
Administration, and monitored the EAC website and GSA-provided IT services as part of the
annual FISMA audit. The lack of an internally developed agency-wide information security
program and of an adequate security management structure will be resolved with implementation
of policies and procedures currently under review and the hiring of a Chief Information Officer
(CIO). EAC expects to hire a CIO in the first quarter of FY 2010.

The FY 2009 Federal Information Security Management Act (FISMA) evaluation report found
that EAC has taken actions to address many of the serious problems noted in the FY 2008
FISMA evaluation report. Table 3 below summarizes EAC’s level of compliance in each
FISMA control area in the FY 2009 FISMA evaluation. SC means substantial compliance, PC
represents partial compliance, and NSC means not in substantial compliance.




                                                   26
                                                                            Election Assistance Commission


       TABLE 3
                        CONTROL REQUIREMENT                           Compliance
                                                                 Determination (SC, PC,
                                                                         NSC)

        Access Control                                                   NSC
        Awareness and Training                                            SC
        Audit and Accountability                                          PC
        Certification, Accreditation, and Security Assessments            PC
        Configuration Management                                          SC
        Contingency Planning                                             NSC
        Identification and Authentication                                PC
        Incident Response                                                 SC
        Maintenance                                                       SC
        Media Protection                                                  SC
        Physical and Environmental Protection                             SC
        Planning                                                          PC
        Personnel Security                                                SC
        Risk Assessment                                                   PC
        System and Services Acquisition                                   SC
        System and Communications Protection                              PC
        System and Information Integrity                                  SC



The FY 2009 report found that weaknesses in four areas had been resolved, weaknesses in two
areas had been partially resolved, and one weakness had not yet been addressed. Since EAC is
not in substantial compliance in every FISMA control area, the FY 2009 financial audit will
report FISMA compliance as a significant deficiency.

The one issue remaining to be addressed is development of a Continuity of Operations Plan
(COOP)/Disaster Recovery Plan (DRP)/Business Impact Analysis (BIA). Without the plans,
EAC’s ability to respond to a disruption in business operations as a result of a disaster or other
long-term emergency could be affected. EAC will develop a COOP and DRP in order to ensure
that, if unexpected events occur, critical operations can continue or be promptly resumed without
significant interruption. Per EAC’s FY 2009 Plan of Action and Milestones (POA&M), the
agency will develop and test a COOP in FY 2010 based on cost-effective strategies identified in
the final FY 2009 FISMA risk assessment.

The FY 2009 FISMA evaluation report includes specific recommendations for ensuring
substantial compliance in different control areas. These recommendations and other key
information security tasks are included in EAC’s high-level FY2009 FISMA POA&M. Once the
items in the POA&M are implemented in FY 2010, EAC will be substantially compliant in every
FISMA control area.




                                                      27
                                                                        Election Assistance Commission


OMB Circular A-127 Financial Management Systems Requirements:

Table 4 presents the results of management analysis of financial management systems
requirements. The beginning balance reflects the results for FY 2008. The ending balance
reflects the status of the non-conformance as of September 30, 2009.

TABLE 4
            CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEMS REQUIREMENTS
                                               (FMFIA § 4)
        Statement of Assurance        Systems do not fully conform to financial management
                                      system requirements
                                      Beginning                                           Ending
  No.       Non-Conformance            Balance       New     Resolved    Consolidated     Balance
        Integrated Financial
   1
        Management System                  1          0         1              0             0
           TOTAL                           1          0         1              0             0

The Financial Managers Financial Integrity Act (FMFIA) Section 4 on accounting system
requirements is interpreted by OMB Circular A-127 Financial Management Systems. OMB
revised A-127 on January 9, 2009, eliminating the integrated financial management systems sub-
sections. The integration issue is no longer a finding on the FY 2009 audit checklist.

That said, EAC takes the recommendation made in the FY 2008 internal control report seriously.
The recommendation was to “either interface its standalone financial systems with the service
provider’s system or utilize the service provider’s subsystems, if available.” During FY 2009,
EAC contracted for an independent assessment of and recommendations to remediate the finding
as regards to a grants interface. Essentially, the recommendation was to use the U.S. Department
of Health and Human Services Payment Management System (PMS).

Since GSA is unwilling and would not be expected to support the interface between PMS and the
GSA core financial system (Pegasys) for a single client agency, EAC remediates the finding
using information provided by recipients of HAVA funds on Standard Form (SF) 425 Federal
Financial Report and advance accounting methodology. Based on the information reported on
the SF-425, EAC periodically adjusts the advance accounts and records grant expenditures by
submitting adjusting entries to GSA for entry into Pegasys. The result is a record of actual grant
activity and balances at the grantee level and information for periodic monitoring of grantee
financial activity.

Additionally, at the end of FY 2009, GSA made a capital asset module available to client
agencies, which EAC is using.




                                                28
                                                                     Election Assistance Commission


Audit Follow-Up

EAC’s Office of Inspector General (OIG) conducts audits and reviews of the agency’s
operations. The Office of the Chief Financial Officer (OCFO) works closely with EAC
management and the OIG to complete actions necessary to respond to audit findings. OCFO
tracks the completion of the audit recommendations in a Monthly Audit Recommendation
Tracking Report. The report is carefully reviewed by EAC and is submitted each month to
Congressional Oversight staff. Of the 82 recommendations, EAC closed 50, consolidated 13 as
being repetitive, and has 19 open findings to resolve—a 77 percent improvement. EAC made
improvements in all Agency management challenges. Financial internal control has substantially
improved through the remediation of audit recommendations made by the independent auditor in
the annual financial statement audit. EAC also considers and responds to recommendations from
audits and reviews conducted by the Government Accountability Office.

Federal Financial Management Improvement Act

Per OMB Bulletin No. 07-04 “Audit Requirements for Federal Financial Statements,” EAC as an
Accountability of Tax Dollars Act of 2002-covered agency, is not subject to the requirements of
the Federal Financial Management Improvement Act.

Accountability of Tax Dollars Act of 2002

The Fiscal Year 2009 financial statement audit report identified a material weakness pertaining
to five accounting errors. The errors were corrected by the end of FY 2009.

Federal Information Security Management Act

EAC is not in compliance with the Federal Information Security Management Act. Actions
necessary to bring EAC into compliance are identified in the EAC response to the draft internal
control report.

Inspector General Act Amendments of 1988

The Inspector General Act requires management to complete all final actions on audit
recommendations within one year of the date of the Inspector General’s (IG) final audit report.
The IG also audits HAVA funds administered by recipients of HAVA grants and transmits to
EAC single audit reports that present findings on HAVA funds. The principal recipients of
HAVA grant funds are state governments. In FY 2009, EAC resolved audit reports covering
State use of HAVA funds in Illinois, New Jersey, Ohio, and South Carolina.




                                               29
                                                                      Election Assistance Commission




                        U.S. ELECTION ASSISTANCE COMMISSION
                        1225 New York Ave. NW – Suite 1100
                        Washington, DC 20005



Annual Assurance Statement on Internal Control

The management of the Election Assistance Commission (EAC) is responsible for establishing
and maintaining effective internal control and financial management systems that meet the
objectives of the Federal Managers’ Financial Integrity Act (FMFIA) and Office of Management
and Budget (OMB) Circular A-123, Management’s Responsibility for Internal Control. Internal
control is an integral component of EAC’s management that provides reasonable assurance the
following objectives are being achieved: effectiveness and efficiency of operations, reliability of
financial reporting, and compliance with applicable laws and regulations.

The EAC’s assessment of internal controls for ensuring the effectiveness and efficiency of
operations focused on assessing controls for ensuring the reliability of information associated
with the performance measures presented in its strategic plan, and on self-assessments in the
Office of the Chief Financial Officer (OCFO). With respect to assessing internal control
designed to ensure the reliability of financial reporting, EAC is not required by OMB Circular A-
123 to perform a separate assessment. EAC relied upon the evaluation of internal controls over
financial reporting conducted by its independent auditors, on reports issued by the Inspector
General, and on OCFO departmental risk assessments and letters of assurance over the
accounting, budget, grants, procurement and overall OCFO functions. With respect to internal
controls to ensure compliance with laws and regulations, the EAC relied upon the evaluation
conducted by its independent auditors and the Inspector General.

The independent auditors identified a material weakness in internal controls over financial
reporting involving five accounting errors in FY 2009. The errors were resolved by September
30, 2009. Further the auditors identified two significant deficiencies, one regarding controls over
journal vouchers and one involving the need to determine the collectability of a non-material
receivable. In FY 2010, EAC will implement policies and procedures for journal vouchers, and
will resolve the receivable issue as quickly as possible.

In FY 2009, EAC focused efforts on resolving material weaknesses and strengthening internal
controls. By the end of FY 2009, management identified two material weaknesses in the
effectiveness of its internal control over operations: lack of effective written policies and
procedures in the areas of property, personnel, travel, information technology, research, and
communications; and full compliance with the requirements of FMFIA. Except for these two
material weaknesses and the two significant deficiencies described above, the Commission
provides a qualified statement of assurance that the internal control and financial management
systems meet the objectives of the Federal Managers’ Financial Integrity Act.



                                                30
                                                                    Election Assistance Commission


EAC will work in FY 2010 to finalize the effective policies and procedures listed above,
strengthen its processes and systems, and establish a robust internal control program.




Gineen Beach
Chair
November 9, 2009




                                               31
SECTION II
FINANCIAL SECTION

II.A. MESSAGE FROM THE CHIEF FINANCIAL OFFICER

I am pleased to present EAC’s financial statements for FY 2009. Our financial statements are an integral
component of the Agency Financial Report (AFR).

This is the second year in its six year operational existence that EAC has prepared financial statements and
submitted them for audit. Prior to establishment of an Office of the Chief Financial Officer (OCFO) in the
Spring of 2009, EAC did not have the systems, controls, processes, and staff expertise necessary to comply
with the Office of Management and Budget guidance for financial and performance reporting and received
a disclaimer opinion on last year’s financial statement audit.

To improve the quality of our financial information and to prepare for future audits, we began taking
necessary steps at the end of FY 2008 by engaging contractors to help EAC draft policies and procedures,
identify improvements to internal controls, and upgrade financial reporting; and by hiring a staff of
budgeting, accounting, grants and contracting experts. The agency now has an exceptional, albeit small,
OCFO team in place. EAC has worked diligently toward an unqualified opinion on our financial
statements.

This is the first year EAC is participating in the pilot performance reporting project as described in OMB
Circular A-136 on Financial Reporting Requirements, presenting an Agency Financial Report in place of
the Performance and Accountability Report. EAC presents summarized performance data in this report,
and plans on providing as much detailed data as possible in February 2010 in conjunction with the FY 2011
Congressional Justification.

During FY 2009, to address issues in the FY 2008 financial statement audit, EAC:

      Reorganized, to both align organizational structure and metrics with the Strategic Plan 2009-2014
       adopted in March and establish its first Office of the Chief Financial Officer consisting of
       experienced grants, budget, accounting and procurement staff;
      Finalized financial management policies and procedures;
      Submitted a FY 2010 Congressional Budget Justification and FY 2011 OMB Budget Justification in
       a performance-based format; and
      Closed out many outstanding recommendations from operational audits and the FY 2008 financial
       statement audit.

The auditor’s report presented in last year’s Performance and Accountability Report identified material
weaknesses in Financial Accounting and Reporting, Grant Accounting, Funds Control, and in
implementing the internal control structure required by the Federal Manager’s Financial Integrity Act. This
year’s reported material weakness included five accounting errors which were resolved by the end of FY
2009.

In FY 2009, EAC focused on cleaning our financial house and resolving audit findings. I look forward to
the new fiscal year, where efforts will be focused on establishing a robust internal control program and
reliable performance measurement and reporting.


Annette Lafferty
Chief Financial Officer
November 16, 2009
                        U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                1225 New York Ave. NW - Suite 1100
                                      Washington, DC 20005



                                                                 November 12, 2009

To:         The Commission

From:       Inspector General

Subject:    Independent Auditor’s Reports on the U.S. Election Assistance
            Commission’s Financial Statements for Fiscal Year 2009 (Assignment
            No. I-PA-EAC-01-09)

                                 INTRODUCTION

       The independent public accounting firm of Leon Snead & Co. (Leon
Snead) performed the audit of the U.S. Election Assistance Commission’s (EAC)
financial statements as of September 30, 2009 and 2008 and for the years then
ended. The audit was performed by Leon Snead under a contract that was issued
by the EAC and monitored by the Office of Inspector General (OIG). The
contract required that the audit be performed in accordance with Government
Auditing Standards issued by the Comptroller General of the United States and
the Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements.

                                RESULTS OF AUDIT

         Leon Snead found that EAC’s financial statements, as of and for the year
ended September 30, 2009, were presented fairly, in all material respects, in
conformity with accounting principles generally accepted in the United States of
America. However, EAC’s accounting records and internal controls for 2008 were
not sufficient, and Leon Snead was not able to apply other auditing procedures to
satisfy themselves as to the completeness and accuracy of those amounts.
Accordingly, the scope of their work was not sufficient to enable them to express an
opinion on the 2008 financial statements.

        In connection with the audit, EAC’s internal controls over financial
reporting and compliance with certain provisions of applicable laws and
regulations were considered. The audit found that the EAC has made substantial
progress in correcting weaknesses in its financial management and reporting that
were identified in prior reports. However, the audit identified one material
weakness and two significant deficiencies in internal control, respectively, as
follows:

       Accounting Processes not in Accordance with Generally Accepted
        Accounting Principles
       Controls Over Journal Vouchers
       Information Technology Controls
       The results of Leon Snead’s test of compliance with laws and regulations
described in the audit report disclosed no instances of noncompliance with laws
and regulations that are required to be reported under Government Auditing
Standards or OMB Bulletin 07-04.

                              OTHER MATTERS

         The OIG has submitted two requests for opinion to the Government
Accountability Office (GAO). The requests cover two issues related to
appropriations given to the EAC in FY 2004, 2005 and 2009. The first request
relates to the EAC’s use of funds appropriated for requirements payments in FY
2004 to fund two other grant programs, the College Poll Worker Program and
Parent Student Mock Election, in keeping with the language of the conference
report associated with the FY 2004 appropriation. This issue involves a potential
violation of the Anti-deficiency Act.

        The second issue relates to the EAC’s recording obligations based upon
the appropriation of requirements payments under continuing resolutions in FY
2005 and FY 2009. In light of the GAO’s previous opinion that requirements
payments are obligated by operation of law, the question is whether the EAC has
binding obligations in favor of the states in the aggregate amount of the
requirements payments appropriated under the FY 2005 and FY 2009 continuing
resolutions. The additional obligations to the states could be in excess of $500
million.

        OMB and the EAC do not agree with the OIG that there is a potential
Anti-deficiency Act violation nor do they agree that there is any additional
obligation to the states as a result of the requirements payments appropriated in
the respective continuing resolutions.

       We expect to receive the opinions from GAO during the first part of
calendar year 2010.

                                EAC RESPONSE

       The report on internal control contains recommendations to address the
weaknesses identified in the report. Management was provided a draft copy of the
report for comment and generally concurred with the findings. The OIG will
monitor the implementation of the recommendations.


            EVALUATION OF LEON SNEAD PERFORMANCE

       To ensure the quality of the audit work performed, the OIG reviewed Leon
Snead’s report and related documentation and inquired of its representatives. The
OIG's review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards (GAGAS), was not intended to enable us
to express, and we do not express, opinions on the EAC's financial statements or
internal control or on the EAC's compliance with laws and regulations. Leon
Snead is responsible for the attached auditor's report dated November 10, 2009
and the conclusions expressed in the report. The OIG review did not disclose any
instances where Leon Snead did not comply, in all material respects, with
GAGAS.

                           REPORT DISTRIBUTION

        The Inspector General Act of 1978, as amended, requires semiannual
reporting to Congress on all reports issued, actions taken to implement
recommendations, and recommendations that have not been implemented.
Therefore, we will include the information in the attachment in our next
semiannual report to Congress. The distribution of this report is not restricted, and
copies are available for public inspection.

         We appreciate the cooperation and assistance of EAC personnel during the
audit. If you or your staff has any questions, please contact me at (202) 566-3125.


Attachment

Cc: Executive Director
ELECTION ASSISTANCE COMMISSION

      Audit of Financial Statements

       As of and for the Years Ended
       September 30, 2009 and 2008




                   Submitted By


            Leon Snead & Company, P.C.


Certified Public Accountants & Management Consultants
                                    TABLE OF CONTENTS



                                                                                                                            Page



Independent Auditor’s Report..............................................................................................1 


       Summary.....................................................................................................................1 


       Opinion on the Financial Statements ..........................................................................2 


       Internal Control over Financial Reporting..................................................................3 


             1. Accounting Processes not in Accordance with GAAP ...................................3 


             2. Controls over Journal Vouchers......................................................................6 


             3. Information Technology Security Controls ....................................................7 


       Compliance with Laws and Regulations.....................................................................8 


Attachment 1, Status of Prior Year Findings .....................................................................11 


Attachment 2, Agency Response to Draft Report..............................................................13 

LEON SNEAD 	
& COMPANY, rc. _____________________                                                              =======_
                                                                                                  Certified Public ACCOlilltauts
                                                                                   _____& Mmwgemeul CO"51,/laIiIS
416 Hunge rford Drive, Suite 400
Rockville, Maryland 20850
301·738·8190
fax: 301-738-8210
leonsnead.companypc@'crols.com




              The Commission and Inspector General
              U.S. Election Assistance Commission


                                          Independent Auditor's Report

              We have audited the accompanying balance sheet of the U.S. Election Assistance
              Commission (EAC), as of September 30, 2009, and the related statements of net cost,
              changes in net position, and budgetary resources (financial statements) for the year then
              ended. We were engaged to audit the accompanying balance sheet of EAC, as of
              September 30, 2008, and the related statements of net cost, changes in net position, and
              budgetary resources for the year then ended.

              In connection with our audit, we also considered the EAC ' s internal control over
              financial reporting and tested the EAC 's compliance with certain provisions of
              applicable laws and regulations that could have a direct and material effect on its
              financial statements.

              SUMMARY


              As stated in our OpIniOn on the financial statements, we found that EAC's financial
              statements, as of and for the year ended September 30, 2009, are presented fairly, in all
              material respects, in conformity with accounting principles generally accepted in the
              United States of America. EAC 's accounting records and internal controls for 2008 were
              not sufficient, and we were not able to apply other auditing procedures to satisfy
              ourselves as to the completeness and accuracy of those amounts. Accordingly, the scope
              of our work was not sufficient to enable us to express, and we do not express, an opinion
              on the 2008 financial statements.

              Our consideration of internal control would not necessarily disclose all deficiencies in
              internal contro l over financial reporting that might be material weaknesses under
              standards issued by the American Institute of Certified Public Accountants. However,
              our testing identified a material weakness in internal controls over financial reporting
              dealing with accounting processes established by EAC that were not in accordance with
              generally accepted accounting principles.




          Generated by a Trial Version of NetCentric Technologies’ CommonLook® Acrobat® Plug-in. www.net-centric.com
The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instance of noncompliance that is required to be reported herein under
Government Auditing Standards, issued by the Comptroller General of the United States
and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements (as amended).

The following sections discuss in more detail our opinion on the EAC’s financial
statements, our consideration of the EAC’s internal control over financial reporting, our
tests of the EAC’s compliance with certain provisions of applicable laws and regulations,
and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

Except as explained in the following paragraph, we conducted our audits of the
accompanying balance sheets of the EAC, as of September 30, 2009 and 2008, and the
related statements of net cost, changes in net position, and budgetary resources for the
years then ended in accordance with auditing standards generally accepted in the United
States of America.

Our audit identified weaknesses in EAC’s internal control over financial reporting that
raised significant concerns about the ability to audit EAC’s 2008 financial statements.
EAC was unable to provide sufficient evidential matter to support certain transactions
and account balances presented in the 2008 financial statements. As discussed in
footnote 15, EAC restated the 2008 financial statements to account for errors made that
impacted the 2009 opening balances. However, EAC was unable to quantify the impact
of these and other errors may have had on the 2008 financial statements. Since the
accounting records were not sufficient to support amounts reported in the financial
statements, it was impractical to extend our procedures to determine the extent, if any, to
which EAC financial statements may have been affected by the matters discussed above.

Because of the matters discussed in the preceding paragraph, the scope of our work was
not sufficient to enable us to express, and we do not express, an opinion on the balance
sheet of the EAC, as of September 30, 2008, and the related statements of net cost,
changes in net position, and budgetary resources for the year then ended.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position, net cost, changes in net position, and budgetary resources
of the EAC, as of and for the year ended September 30, 2009, in conformity with
accounting principles generally accepted in the United States of America.

The information in the Management’s Discussion and Analysis section is not a required
part of the basic financial statements but is supplementary information required by
accounting principles generally accepted in the United States of America or OMB
Circular A-136, Financial Reporting Requirements. The EAC is also required to report,
as supplementary information, the annual investment in non-federal property funded
through the agency’s grant programs. Except as discussed below, we have applied



Leon Snead & Company, P.C.                   2
certain limited procedures, which consisted principally of inquiries of EAC management
regarding the methods of measurement and presentation of the supplementary
information and analysis of the information for consistency with the financial statements.
However, we did not audit the information and express no opinion on it.

The EAC has not presented required supplementary information required by GAAP
relating to the annual investment in non-federal property that accounting principles
generally accepted in the United States has determined is necessary to supplement,
although not required to be part of, the basic financial statements.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the financial statements of the EAC as of and for
the year ended September 30, 2009, in accordance with auditing standards generally
accepted in the Unites States of America, we considered the EAC’s internal control over
financial reporting (internal control) as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose
of expressing an opinion on the effectiveness of the EAC’s internal control. Accordingly,
we do not express an opinion on the effectiveness of the EAC’s internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis.
A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the entity’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with generally accepted accounting principles such
that there is a more than remote likelihood that a misstatement of the entity’s financial
statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control. A material weakness is a significant deficiency, or combination
of significant deficiencies, that results in more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected by the entity’s
internal control.

Our consideration of internal control was for the limited purpose described in the first
paragraph in this section of the report and would not necessarily identify all deficiencies
in internal control that might be significant deficiencies or material weaknesses.
However, as discussed below, we identified certain deficiencies in internal control that
we consider to be significant deficiencies. We consider finding number one to be a
material weakness.

   1. Accounting Processes not in Accordance with GAAP

       Accounting errors resulting from accounting processes that did not meet generally
       accepted accounting principles (GAAP) and material weaknesses in internal



Leon Snead & Company, P.C.                    3
       controls over financial reporting impacted EAC’s 2008 financial statements and
       continued in the 2009 interim financial statements. As a result, EAC’s 2009
       interim financial statements were materially misstated. However, for the
       September 30, 2009, financial statements, EAC officials strengthened internal
       controls over financial reporting, and adopted accounting processes that were in
       accordance with GAAP. Details of the problems noted are discussed below.

           •   EAC did not follow GAAP when accounting for advances made to
               grantees. EAC accounted for all funds disbursed to grantees as an expense
               in the year that the funds were disbursed. However, GAAP requires that
               cash outlays made by a federal entity to its employees, contractors,
               grantees, or others to cover a part or all of the recipients’ anticipated
               expenses shall be recorded as an advance. These advances totaled
               approximately $34 million as of the end of fiscal year 2009.

               EAC implemented actions to correct this problem beginning with the June
               30, 2009, interim financial statements. In these financial statements, EAC
               recorded certain cash outlays made to contractors and grantees to cover a
               part or all of the recipients’ anticipated expenses as an advance. However,
               EAC did not adopt the same accounting policies for advances provided
               under another program that EAC administers. EAC fully corrected this
               problem for the agency’s September 30, 2009, financial statements.

           •   EAC’s 2009 interim Statement of Net Cost (SNC) was neither presented
               in accordance with the requirements of OMB Circular A-136, nor met the
               cost accounting standards of SFFAS No. 4. As a result of these errors, the
               agency’s interim SNC’s were misstated.

               EAC recorded its salaries and operating expenses as a program on its SNC
               instead of allocating these costs to its major programs, as required. We
               also determined that the EAC did not have a documented and acceptable
               cost accounting method to allocate costs to the agency’s programs, or to
               provide reports to management based upon appropriate cost accounting
               methodologies.

               OMB Circular A-136 requires that the reporting entity should report the
               full cost of each program’s output, which consists of: (a) both direct and
               indirect costs of the output; and (b) the costs of identifiable supporting
               services provided by other segments within the reporting entity and by
               other reporting entities.

               EAC corrected this problem, and developed a costing methodology that
               allocated salaries and expenses to its responsibility segments for the
               agency’s September 30, 2009, financial statements. Our tests of the
               costing methodology established by EAC determined that it met the
               requirements of SFFAS No. 4 in all material respects.



Leon Snead & Company, P.C.	                 4
           •   Account receivables totaling approximately $330,000, and representing
               amounts grantees owed EAC for grant funds that were not expended and
               should be returned to the Federal government were not recorded on EAC’s
               financial records. EAC officials have corrected this problem and have
               recorded these amounts in its 2009 year-end financial statements.

               SFFAS No. 1 requires recognition of a receivable when a federal entity
               establishes a claim to cash or other assets against other entities based on
               legal provisions, or when goods or services are provided. If an exact
               amount of a receivable is unknown, a reasonable estimate must be made.

           •   Capital assets were not properly accounted for by EAC until the agency
               prepared its June 30, 2009 financial statements. EAC completed its
               review of prior year accounting records, and was able to record these
               assets in its 2009 year-end financial statements in accordance with GAAP.

EAC officials took action during fiscal year 2009 to hire financial management officials
with necessary skill sets to develop and implement required accounting policies and
controls to address the problems that impacted its past financial management operations.
EAC has developed required financial management policies and procedures in many
areas and has other policies related to EAC internal controls either planned or under
development.

Recommendation

Implement financial management policies and internal controls, and finalize other
policies and procedures that are under development or planned.

Agency Response

The Chair, U.S. Election Assistance Commission in a response dated November 9, 2009,
advised us that in fiscal year 2009, EAC began the process of designing, implementing
and assessing internal controls in compliance with Office of Management and Budget
Circular A-123. EAC will implement in fiscal year 2010 control activities needed to
achieve program objectives and control activities. The Chair also advised that EAC will
work towards finalizing draft operational policies and procedures and will continue to
refine the already completed financial management policies and procedures.




Leon Snead & Company, P.C.	                 5
2. Controls over Journal Vouchers

   Journal vouchers processed by EAC’s service provider to EAC’s general ledger were
   not sufficiently supported. EAC officials had not established controls to ensure that
   financial management personnel reviewed and approved the journal vouchers
   proposed by EAC’s service provider. As a result, there was reduced assurance that
   errors that may impact financial reports would be detected.

   We obtained from EAC’s service provider a copy of its journal voucher processing
   controls. Our review of this document showed that, if the controls/processes were
   placed in operation, the controls would provide reasonable assurance that risks of
   errors would be reduced to reasonable levels. However, we found that for the journal
   vouchers we tested the service provider had not effectively implemented the control
   procedures. The service provider’s procedures require that backup documentation be
   gathered to support the entries, and that a supervisor review, initial and date the
   back-up documentation. Trial balances or queries should be obtained to ensure the
   journal voucher processed correctly.

   We selected five journal vouchers for review and obtained “documentation” from the
   service provider to support the journal vouchers. For three of the five journal
   vouchers provided, we could not determine that the entries processed were
   appropriate. We subsequently obtained from EAC sufficient documentation to
   support the journal vouchers questioned above. When our testing was performed,
   EAC had not established controls to review and approve journal vouchers processed
   by the agency’s service provider. EAC established internal controls that address this
   problem after we discussed this issue with them.

   Recommendation

   Implement procedures that require EAC accounting personnel to review and approve
   journal vouchers posted to the agency’s records.

   Agency Response

   The Chair advised that in August 2009, EAC management implemented procedures
   with the General Service Administration (GSA) requiring all journal vouchers be
   reviewed and approved by the EAC’s management prior to entry into the financial
   system.




Leon Snead & Company, P.C.                 6
3. Information Technology Security Controls

   EAC has begun to take actions to address the IT security deficiencies that were
   reported in the 2008 FISMA report. While many corrective actions are underway or
   planned, EAC has not fully corrected all weaknesses that impact its IT security
   program. We attributed this condition, in part, to the absence of management
   officials with IT security program expertise. As a result, EAC is not in full
   compliance with the requirements of the Financial Information Systems Management
   Act (FISMA), which could impact EAC’s financial management operations.

   We assessed whether EAC’s agency-wide IT security program was in substantial
   compliance with each of the security control areas established by Federal Information
   Processing Standards (FIPS) 200, Minimum Security Requirements for Federal
   Information and Information System. For each control area, we determined whether
   the EAC was either in substantial compliance (SC), partial compliance (PC), or not in
   substantial compliance (NSC). The table below shows our determinations.

                     CONTROL REQUIREMENT                          Compliance
                                                                 Determination
                                                                 (SC, PC, NSC)
        Access Control                                               NSC
        Awareness and Training                                       SC
        Audit and Accountability                                      PC
        Certification, Accreditation, and Security Assessments        PC
        Configuration Management                                     SC
        Contingency Planning                                         NSC
        Identification and Authentication                             PC
        Incident Response                                             SC
        Maintenance                                                   SC
        Media Protection                                              SC
        Physical and Environmental Protection                         SC
        Planning                                                     PC
        Personnel Security                                           SC
        Risk Assessment                                               PC
        System and Services Acquisition                               SC
        System and Communications Protection                          PC
        System and Information Integrity                              SC


   FIPS 199, Standards for Security Categorization of Federal Information and
   Information System, provides that policies and procedures play an important role in
   the effective implementation of an enterprise-wide information security program, and
   the success of the resulting security measures employed to protect an agency’s
   information and information systems. FIPS 199 provides that organizations must
   develop and promulgate formal, documented policies and procedures governing the



Leon Snead & Company, P.C.                        7
   minimum security requirements set forth in this standard, and must ensure their
   effective implementation.

   NIST Special Publication (SP) 800-53, Recommended Security Controls for Federal
   Information Systems and Organizations, provides that agencies must categorize their
   information and information systems under the requirements of FIPS 199. Security
   categorization is accomplished as an organization-wide activity with the involvement
   of senior-level organizational officials. As required by FIPS 200, organizations use
   the security categorization results to designate information systems as low-impact,
   moderate-impact, or high-impact systems. For each information system, the agency
   must meet recommended minimum security controls, as applicable to their
   operations.

   EAC in response to the IT security weaknesses developed a detailed Plan of Action
   and Milestone (POA&M) to address each problem area. We have issued
   recommendations to EAC in a separate report; therefore, we are not making any
   recommendations in this report.

   Agency Response

   The Chair advised that the EAC has developed a detailed Plan of Action and
   Milestone (POA&M) to address each problem area. Once the items in the POA&M
   are implemented in fiscal year 2010, EAC will be substantially compliant in every
   FISMA control area.

Management of EAC reported the aforementioned material weakness in its reporting
prepared pursuant to the Federal Managers’ Financial Integrity Act (FMFIA).

A summary of the status of prior year findings is included as Attachment 1.

We noted other control deficiencies over financial reporting and its operation that we
have reported to the management of the EAC and those charged with governance in a
separate letter dated November 10, 2009.

COMPLIANCE WITH LAWS AND REGULATIONS

The results of our tests of compliance with certain provisions of laws and regulations, as
described in the Responsibilities section of this report, disclosed no instance of
noncompliance with laws and regulations that is required to be reported under
Government Auditing Standards and OMB Bulletin 07-04.

Under OMB Bulletin 07-04, auditors are generally required to report whether the
agency’s financial management systems substantially comply with the Federal financial
management systems requirements, applicable Federal accounting standards, and the
United States Government Standard General Ledger at the transaction level specified in
the Federal Financial Management Improvement Act (FFMIA). The Accountability of
Tax Dollars Act, which requires the EAC to prepare and submit audited financial


Leon Snead & Company, P.C.                  8
statements to Congress and the Director of OMB, did not extend to EAC the requirement
to comply with FFMIA.

RESPONSIBILITIES

Management Responsibilities

Management of the EAC is responsible for: (1) preparing the financial statements in
conformity with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal control to provide reasonable assurance that the broad control
objectives of the FMFIA are met; and (3) complying with applicable laws and
regulations. In fulfilling this responsibility, estimates and judgments by management are
required to assess the expected benefits and related costs of internal control policies.

Auditor Responsibilities

Our responsibility is to express an opinion on the financial statements based on our audit.
We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

An audit includes (1) examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements; (2) assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In planning and performing our audit, we considered the EAC’s internal control over
financial reporting by obtaining an understanding of the agency’s internal control,
determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements.

We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin 07-04 and Government Auditing Standards. We
did not test all internal controls relevant to operating objectives as broadly defined by
FMFIA. Our procedures were not designed to provide an opinion on internal control
over financial reporting. Consequently, we do not express an opinion thereon.

As required by OMB Bulletin 07-04, with respect to internal control related to
performance measures determined to be key and reported in Management’s Discussion
and Analysis, we obtained an understanding of the design of significant internal controls
relating to the existence and completeness assertions and determined whether they had



Leon Snead & Company, P.C.                  9
   been placed in operation. Our procedures were not designed to provide assurance on
   internal control over reported perfonnance measures, and, accordingly, we do not provide
   an opinion thereon.

   As part of obtaining reasonable assurance about whether the agency's financial
   statements are free of material misstatement, we perfonned tests of its compliance with
   certain provisions of laws, regulations, and significant provisions of contracts,
   noncompliance with which could have a direct and material effect on the detennination
   of financial statement amounts, and certain other laws and regulations specified in OMB
   Bulletin 07-04. We limited our tests of compliance to these provisions and we did not
   test compliance with all laws and regulations applicable to the EAC. Providing an
   opinion on compliance with certain provisions of laws, regulations, and significant
   contract provisions was not an objective of our audit and, accordingly, we do not express
   such an opinion.

   AGENCY COMMENTS AND AUDITOR EVALUATION

   We have incorporated the agency's comments to our audit recommendations in the
   report, and have attached a copy of the response, in its entirety, as Attachment 2 to this
   report.

   The EAC ' s written response to the significant deficiencies and material weaknesses
   identified in our audit has not been subjected to the auditing procedures applied in the
   audit of the financial statements and, accordingly, we express no opinion on it.

   DISTRIBUTION


   This report is intended solely for the infonnation and use of the management, the
   Commissioners, the Office of Inspector General and others within the EAC, OMB, and
   Congress, and is not intended to be and should not be used by anyone other than these
   specified parties.




   I -- - "" ~-A.-CofV\,;p'q ,u'--t/ '
   ~-Sneaa& 'Conlpahy~ P.c.
   November 10,2009
                                                    r



   Leon Snead & Company, P.c'                  10



Generated by a Trial Version of NetCentric Technologies’ CommonLook® Acrobat® Plug-in. www.net-centric.com
                                                                                         Attachment 1
                                 Status of Prior Year Findings


  No.                Prior Year Condition                           Status As Of September 30, 2009


        Material Weakness: EAC’s Performance and              EAC officials took action to correct this
        Accountability Report did not meet OMB A-136          problem.
   1a
        requirements
        Material Weakness:        EAC did not have            EAC officials took action to correct this
        adequate resources and employees with                 problem.
   1b
        appropriate skill sets to handle financial
        management accounting and reporting. The
        financial operations were fragmented, and there
        was a lack of organizational structure relating to
        internal and external financial reporting
        requirements.

   1c   Material Weakness:              Deficiencies in       EAC officials took action to correct these
        accounting materially impacted EAC’s 2008             problems.
        financial statements, including:
        •   Grant advances      were    misclassified    as
            expenses.
        •   Certain requirement payments may have
            been misclassified as expense.
        •   Advances made to a Federal service
            provider were misclassified as expense.
        •   Federal assistance receivables were not
            reported.
        •   Statement of Net Costs had presentation
            errors.
        •   Leasehold improvements and              certain
            purchases were not capitalized.
        •   Certain liabilities were not accrued.
        •   Certain budgetary accounting may have
            been incorrect.
   1d   Material Weakness:         EAC’s financial            EAC officials took action to correct this
        management system did not meet OMB Circular           problem.
        A-127 requirements.
   1e   Material Weakness:         EAC did not have           EAC officials have finalized financial policies
        necessary financial management policies and           and procedures, and other policies and
        procedures to enable the agency to timely and         procedures for many operational processes are
        properly prepare financial statements.                in review or planned. However, the condition
                                                              has not been fully corrected.
   1f   Material Weakness: EAC did not prepare                EAC officials took action to correct this
        necessary accounting reconciliations.                 problem.
   1g   Material Weakness: Advances made to a                 EAC officials took action to correct this
        Federal service provider were recorded as             problem.
        expense.



Leon Snead & Company, P.C.                          11
   2    Material Weakness: Grant transactions were          EAC officials took action to correct this
        not prepared in accordance with generally           problem.
        accepted accounting principles.
   3    Material Weakness:         EAC did not have         The EAC OIG has requested a formal opinion
        adequate funds control to ensure compliance         from the GAO to determine if the issues
        with antideficiency act and purpose statute.        reported constitute a violation. GAO has not
                                                            made a formal determination in this area. As a
                                                            result, this issue remains open.
   4    Material Weakness: EAC did not have a               EAC officials took action to correct this
        process in place to assess its internal controls.   problem.
   5    Significant Deficiency: EAC did not have an         EAC has addressed many of the problems with
        agency-wide IT security program.                    its IT security program. However, EAC has
                                                            not corrected all weaknesses identified in the
                                                            report. As a result, this issue remains open.




Leon Snead & Company, P.C.                        12
                                                                                          Attachment 2



            U.S. ELECTION ASSISTANCE COMMISSION
            1225 NEW YORK AVENUE, N.w., SUITE 1100
            WASHING rON, D.C. 20005

                                                                               November 9,2009

    Memorandum

    To: 	    Curtis Crider
             Inspector General


    From: 	 Gineen Bresso Beach
            Chair, u.s. Election Assistance Commission

    Subject: Election Assistance Commission Response to Independent Audit Report on the
             U.S. Election Assistance Commission's Financial Statements for Fiscal Year
             2009 (Assignment No. I-PA-EAC-OI-09)


    During Fiscal Year 2009, the Election Assistance Commission (EAC) took action to
    address the problems that impacted its Fiscal Year 2008 financial management reports.
    This action included resolving all but three of its prior year findings, implementing sound
    financial management practices and obtaining an unqualified audit opinion on the Fiscal
    Year 2009 financial statements.

    The EAC recognizes that FY 2010 brings new challenges and the opportunity to resolve
    one remaining FY 2008 deficiency and Fiscal Year 2009 deficiencies. Overall EAC
    agrees with the one material weakness and two significant deficiencies identified by the
    audit.

    Our response to each audit recommendation is presented below.

            1. 	 Implement financial management policies and internal controls, and finalize
                 other policies and procedures that are under development or planned.

               In Fiscal Year 2009, EAC began the process of designing, implementing and
               assessing internal controls in compliance with Office of Management and
               Budget Circular A-I23 , Management's Responsibility for Internal Control,
               and Federal Manager's Financial Integrity Act. In response to
               recommendations obtained from an independent assessment, EAC will
               implement in FY 2010 control activities needed to achieve program objectives
               and control activities that will improve accuracy of performance data. This
               will ensure that EAC's performance metric reports are reliable and measure
               the right activities.

               EAC will work towards finalizing draft operational policies and procedures
               and will continue to refine the already completed financial management
               policies and procedures.


                      Tel: (202) 566-3100       www.eac.gov       Fax: (202) 566-3127 

                                        Toll free: 1 (866) 747-1471 


                                                  13 CommonLook® Acrobat® Plug-in. www.net-centric.com
Generated by a Trial Version of NetCentric Technologies’
                                                                                 Attachment 2




           2. 	 Implement procedures that require EAC accounting personnel to review and
                approve journal vouchers posted to the agency's records.

               In August 2009, EAC Management implemented procedures with the General
               Service Administration (GSA) requiring all journal vouchers be reviewed and
               approved by the EAC's management prior to entry into the financial system.
               Upon entry, GSA forwards the EAC journal voucher entry number, providing
               management the opportunity to review the entry for accuracy in the financial
               records.

           3. 	 Information Technology Security Controls

               The FY 2009 Federal Information Security Management Act (FISMA)
               evaluation report found that EAC has taken actions to address many of the
               serious problems noted in the FY 2008 FISMA evaluation report. The FY
               2009 report found that four weaknesses had been resolved, two weaknesses
               had been partially resolved and one weakness had not yet been addressed.

               EAC has developed a detailed Plan of Action and Milestone (POA&M) to
               address each problem area. Once the items in the POA&M are implemented
               in FY 2010, EAC will be substantially compliant in every FISMA control
               area. Detailed information on the results of the evaluation and managements
               responses can be found in the document "Us. Election Assistance
               Commission Evaluation of Compliance with the Requirements of the Federal
               Information Security Management Act Fiscal Year 2009 (Assignment No. 1­
               EV-EA C-02-09).




                                                  14 CommonLook® Acrobat® Plug-in. www.net-centric.com
Generated by a Trial Version of NetCentric Technologies’
                                      ELECTION ASSISTANCE COMMISSION
                                                    BALANCE SHEET
                                    As of September 30, 2009 and 2008 (In Dollars)
                                                                                                       Restated
Assets                                                                            2009                  2008
         Intragovernmental:
                Fund balance with Treasury (Note 2)                        $ 157,884,882           $ 133,466,533
                Advances and Prepayments (Note 4)                                 2,097,844              2,961,010
         Total intragovernmental assets                                         159,982,726            136,427,543
         With public:
                Accounts receivable, net (Note 3)                                  349,146                346,948
                Advances and prepayments (Note 4)                                34,692,298             52,249,395
         Total asset with public                                                 35,041,444             52,596,343
         General property and equipment, net (Note 5)                              269,120                477,635
         Total assets                                                      $ 195,293,290           $ 189,501,521


Liabilities
         Intragovernmental:
                Accounts payable (Note 6)                                  $       348,958         $      512,984
                Employer contribution and payroll taxes payable (Note 6)             48,157                40,645
         Total intragovernmental                                                   397,115                553,629
         With the public:
                Accounts payable (Note 6)                                         7,983,052               646,686
                Accrued payroll and benefits (Note 6)                              241,878                227,068
                Unfunded leave (Note 6)                                            261,880                185,889
         Total liabilities                                                        8,883,925              1,613,272


Net position
                Unexpended appropriations                                       186,401,600            187,595,489
                Cumulative results of operations                                      7,765               292,760
         Total net position                                                     186,409,365            187,888,249


         Total liabilities and net position                                $ 195,293,290           $ 189,501,521




                                       The accompanying notes are an integral part of these financial statements.

                                                                           15
                     ELECTION ASSISTANCE COMMISSION
                             STATEMENT OF NET COST
             For Years Ended September 30, 2009 and 2008 (In Dollars)


                                                                            Restated
                                                      2009                   2008



Program Costs:
           Communications                       $     1,994,125            $ 1,543,834
           Fund and Oversee                         113,042,449               6,598,961
           Research, Policy and Programs              2,972,123               2,300,992
           Testing and Certification                  3,578,173               2,770,190
        Net cost of operations (Note 8)         $ 121,586,870              $ 13,213,977




                                  The accompanying notes are an integral part of these financial statements.

                                                                      16
                                           ELECTION ASSISTANCE COMMISSION
                                         STATEMENT OF CHANGES IN NET POSITION
                                 For The Years Ended September 30, 2009 and 2008 (In Dollars)

                                                                                                                  Restated
                                                                                       2009                        2008


Cumulative results of operations:
        Beginning balance                                                       $             292,760         $         (292,114)


        Beginning balance, as adjusted                                                        292,760                   (292,114)


Budgetary financing sources:
       Appropriations used                                                              121,087,642                   13,653,058

Other financing sources (non-exchange):
        Imputed financing from costs absorbed from others                                     214,233                   145,793

Total financing sources:                                                                121,301,874                   13,798,851

        Net cost of operations                                                         (121,586,870)                 (13,213,977)
        Net change                                                                         (284,995)                     584,874


Cumulative results of operations:                                                               7,765                   292,760

Unexpended appropriations:
       Beginning balance                                                                187,595,489                   62,968,547
        Prior period adjustments due to correction of errors                                      0                            -
        Beginning balance, as adjusted                                                  187,595,489                   62,968,547

Budgetary financing sources:
       Appropriations received                                                          123,959,000                  141,530,000

        Appropriations transferred in/out (+/-)                                           (4,000,000)                 (3,250,000)



        Other adjustments                                                                     (65,247)                         -

        Appropriations used                                                            (121,087,642)                 (13,653,058)

Total budgetary financing sources                                                         (1,193,889)                124,626,942

Total unexpended appropriations                                                         186,401,600                  187,595,489

Net position                                                                    $       186,409,365           $      187,888,249




                                 The accompanying notes are an integral part of these financial statements.

                                                                     17
                                                       ELECTION ASSISTANCE COMMISSION
                                                     STATEMENT OF BUDGETARY RESOURCES
                                           For The Years Ended September 30, 2009 and 2008 (In Dollars)

                                                                                                                       Restated
                                                                                                   2009                 2008

Budgetary resources:
                  Unobligated balance, brought forward (Note 11)                             $      7,561,952      $     6,918,986
                  Recoveries of prior year obligations (Note 11)                                     662,985               513,671
                  Budget authority:
                                       Appropriations received                                   123,959,000           141,530,000
                                       Spending authority from offsetting collections:
                                                 Collected (Note 11)                                 837,849                19,491
                  Nonexpenditure transfers, net, anticipated and actual                            (4,000,000)          (3,250,000)
                  Permanently not available                                                           (65,247)                    -
Total budgetary resources (Note 9)                                                           $   128,956,539       $   145,732,148


Status of budgetary resources:
                  Obligations incurred: (Note 9 & Note 11)                                   $   114,957,639       $   138,170,196


                  Unobligated balance - apportioned                                                 7,452,047              766,190


                  Unobligated balance not available (Note 11)                                       6,546,853            6,795,762
Total status of budgetary resources (Note 9)                                                 $   128,956,539       $   145,732,148

Change in obligated balance:
                  Obligated balance, net
                  Unpaid obligations, brought forward (Note 11)                              $   125,904,580       $     3,431,129
                  Obligations incurred, net                                                      114,957,639           138,170,196
                  Less: gross outlays (Note 11)                                                   (96,313,253)         (15,183,074)
                  Less: recoveries of prior year unpaid obligations, actual                         (662,985)             (513,671)
Total, unpaid obligated balance, end of period forward (Note 12)                             $   143,885,981       $   125,904,580
Net outlays:
                  Gross outlays                                                              $    96,313,253       $    15,183,074
                  Less: offsetting collections                                                      (837,849)              (19,491)
Net outlays (Note 9)                                                                         $    95,475,404       $    15,163,583




                                      The accompanying notes are an integral part of these financial statements.

                                                                              18
Note 1 – Summary of Significant Accounting Policies

Reporting Entity

U.S. Election Assistance Commission (EAC) is an independent, bipartisan commission
charged with developing guidance to meet the Help America Vote Act (HAVA)
requirements, adopting voluntary voting system guidelines, and serving as a national
clearinghouse of information about election administration. EAC also accredits
testing laboratories and certifies voting systems, as well as audits the use of HAVA
funds.

Other responsibilities include distributing and monitoring HAVA funds provided to
States and other grantees; and maintaining the national mail voter registration
form developed in accordance with the National Voter Registration Act of 1993.

HAVA established the Standards Board and the Board of Advisors to advise EAC. The
law also established the Technical Guidelines Development Committee to assist EAC
in the development of voluntary voting system guidelines.

The four EAC commissioners are appointed by the president and confirmed by the
United States Senate. EAC is required to submit an annual report to Congress as well
as testify periodically about HAVA progress and related issues. The commission also
holds public meetings and hearings to inform the public about its progress and
activities.

Basis of Accounting and Presentation

As required by the Accountability of Tax Dollars Act of 2002 (ATDA), the
accompanying financial statements present the financial position, net cost of
operations, changes in net position, and budgetary resources of the EAC. While
these financial statements have been prepared from the books and records of the
EAC in accordance with United States generally accepted accounting principles
(GAAP) and in accordance with the form and content for entity financial statements
specified by the Office of Management and Budget (OMB) in Circular A-136, as
revised, Financial Reporting Requirements, as well as the accounting policies of the
EAC, the statements may differ from other financial reports submitted pursuant to
OMB directives for the purpose of monitoring and controlling the use of the EAC’s
budgetary resources. GAAP for federal entities are the standards prescribed by the
Federal Accounting Standards Advisory Board (FASAB), which is the official body for
setting the accounting standards of the federal government.

These financial statements reflect both accrual and budgetary accounting
transactions. Under the accrual method of accounting, revenues are recognized
when earned and expenses are recognized when a liability is incurred, without regard
to receipt or payment of cash. Budgetary accounting is designed to recognize the
obligation of funds according to legal requirements. Budgetary accounting is

                                         19
essential for compliance with legal constraints and controls over the use of Federal
funds.

Throughout these financial statements, assets, liabilities, revenues, and costs have
been classified according to the type of entity with which the transactions are
associated. Intragovernmental assets and liabilities are those from or to other federal
entities. Intragovernmental earned revenues are collections or accruals of revenue
from other federal entities and intragovernmental costs are payments or accruals to
other federal entities. These statements should be read with the understanding that
they are for a component of the U.S. Government, a sovereign entity.

Assets

Assets that an entity is authorized to use in its operations are termed entity assets,
while assets that are held by an entity and are not available for the entity’s use are
termed non-entity assets. All of the EAC’s assets are entity assets and are available
to carry out the mission of the EAC, as appropriated by Congress.

Fund Balance with Treasury

EAC does not maintain cash in commercial bank accounts. The U.S. Treasury
processes cash receipts and disbursements. Funds with the U.S. Treasury consist of
appropriated funds. These funds are available to pay current liabilities and finance
authorized purchase commitments.

Accounts Receivable

EAC’s accounts receivable represents claims from associates and amounts due from
the States and grant recipients. The amounts due from current and separated
employees result from payroll adjustments and/or court ordered actions. The
amounts from the States and grant recipients result from audits and examinations
performed by the EAC on the proper use of funds under the Help America Vote Act of
2002, Section 101, 102 and 251 payments and Section 102 funds unspent by the
States that did not file the extension waiver.

The EAC establishes an allowance for the loss on accounts receivable that are
deemed uncollectible accounts, which is included in Accounts Receivable, net on the
balance sheet. After an account or portion thereof is deemed delinquent an
accounts receivable allowance will be established in the financial records. The
allowance will be based on known historical collection rates and a review of
circumstances particular to the debtor.

Advances and Prepayments

On occasion the EAC prepays amounts in anticipation of receiving future benefits.
Although a payment has been made, an expense is not recorded until goods have


                                           20
been received or services have been performed. The EAC has prepayments and
advances with non-governmental, as well as governmental vendors.

Total prepayments and advances to non-governmental entities as of September 30,
2009 were $34,692,299. These include primarily HAVA Section 102 disbursements
unspent by the States as of September 30, 2009. The prepayments and advances to
governmental entities were $2,097,844 as of September 30, 2009. These included
deposit accounts with the Department of Interior, Acquisition Services Directorate to
provide acquisition support services to the EAC.

General Property and Equipment

General property and equipment (PP&E) is reported at acquisition cost.

The capitalization threshold is established at $10,000 for assets with a useful life of
2 or more years. The bulk purchase policy requires that all items will be capitalized
when the individual useful lives are at least two years and have an aggregate value of
$100,000 or more.

Acquisitions of PP&E that do not meet the capitalization criteria are recorded as
operating expenses. General PP&E consists of items that are used by EAC to support
its mission.

Depreciation on these assets is calculated using the straight-line method with no
salvage value. Depreciation begins the month after the asset is placed in service.
Useful lives are 5 years for equipment and 5 years for furniture.

Maintenance, repairs and minor renovations are expensed as incurred. Expenditures
that materially increase values, change capacities or extend useful lives are
capitalized.

The headquarters building in which the EAC operates is leased through the General
Services Administration (GSA) under an occupancy agreement, which manages the
lease agreement between the Federal government and the commercial entity. EAC is
billed on a monthly basis by GSA for the leased premises. The cost of the leasehold
improvements to the headquarters building has been capitalized. Any costs of
leasehold improvements financed with EAC appropriated funds are capitalized if the
total cost exceeds $25,000. Any construction costs will be accumulated as
“construction in-progress” until completion and then transferred and capitalized as a
“leasehold improvements” over 7 years or the remainder of the lease, whichever is
less.

Currently, EAC has no internal use software. In future years, any internal use software
development and acquisition costs of $25,000 will be capitalized as software
development in progress until the development stage is completed and the software
successfully tested. At acceptance, software development-in-progress costs will be
reclassified as internal use software costs and amortized using the straight-line

                                          21
method over an estimated useful life of 5 years. Purchased commercial software that
does not meet the capitalization criteria will be expensed. Enhancements which do
not add significant new capability or functionality will be expensed.
The estimated useful lives and corresponding capitalization thresholds are as
follows:
                     Type                       Lives            Threshold
          Equipment                            5 years             $ 10,000
          Furniture                            5 years               10,000
          Vehicles                             5 years               10,000
          Leasehold Improvements               7 years               25,000
          Software                             5 years               25,000

Liabilities

Liabilities represent amounts that are likely to be paid by the EAC as the result of
transactions or events that have already occurred; however, no liabilities are paid by
the EAC without an appropriation. Intragovernmental liabilities arise from
transactions with other Federal entities. Liabilities classified as not covered by
budgetary resources are liabilities for which appropriations have not been enacted
(e.g., annual leave benefits and actuarial liability under the Federal Employees
Compensation Act).

Accounts Payable

Accounts payable consist of liabilities to commercial vendors and contractors and
other federal agencies for amounts owed for goods, services, and other expenses
received but not yet paid at the end of the fiscal year. Accounts payable also consist
of disbursements in transit recorded by EAC but not paid by the U.S. Treasury.

Accrued Payroll and Benefits

Accrued payroll and benefits represents salaries, wages and benefits earned by
employees, but not disbursed as of September 30, 2009. Accrued payroll and
benefits are payable to employees and are therefore not classified as
intragovernmental.

Annual, Sick and Other Leave

Annual leave is recorded as a liability when it is earned; the liability is reduced as
leave is taken. Each pay period, the balance in the accrued leave account is adjusted
to reflect the current leave balances and pay rates. Accrued annual leave is paid
from future funding sources and accordingly is reflected as a liability not covered by
budgetary resources. Sick leave and other types of non-vested leave are expensed as
taken.




                                          22
Federal Employee Benefits

A liability is recorded for estimated and actual future payments to be made for
worker’s compensation pursuant to the Federal Employees Compensation Act (FECA).
EAC’s did have a FECA liability at the end of the reporting period for claims filed for
the period July 1, 2009 through September 30, 2009. Accordingly, EAC recorded a
liability for estimated payments to be made for workers’ compensation pursuant to
the Act.

Employee Retirement Plans

EAC employees participate in either the Civil Service Retirement System (CSRS) or
the Federal Employees Retirement System (FERS), which became effective on
January 1, 1987. Most EAC employees are covered by FERS and social security.

For employees covered by CSRS, the EAC withheld 7.0 percent of base pay earnings.
The EAC matches this withholding, and the sum of the withholding and the matching
funds is transferred to the Civil Service Retirement System. FERS contributions made
by employer agencies and covered employees are comparable to the U.S.
Government’s estimated service costs.

For FERS covered employees, the EAC made contributions of 12.3 percent of basic
pay. Employees participating in FERS are covered under the Federal Insurance
Contribution Act (FICA) for which the EAC contributes a matching amount to the
Social Security Administration.

Thrift Savings Plan (TSP)

The Thrift Savings Plan (TSP) is a retirement savings and investment plan for employees
covered by either CSRS or FERS. The TSP is administered by the Federal Retirement
Thrift Investment Board on behalf of Federal agencies. For employees belonging to
FERS, the EAC automatically contributes one percent of base pay to their account and
matches contributions up to an additional four percent. For employees belonging to
CSRS, there is no governmental matching contribution.

The EAC does not report on its financial statements CSRS and FERS assets,
accumulated plan benefits, or unfunded liabilities, if any, which may be applicable to
EAC employees. Reporting such amounts is the responsibility of the Office of Personnel
Management. The portion of the current and estimated future outlays for CSRS not
paid by EAC is, in accordance with Statement of Federal Financial Accounting Standards
(SFFAS) No. 5, Accounting for Liabilities of the Federal Government, included in EAC's
financial statements as an imputed financing source.




                                          23
Commitments and Contingencies

Commitments are contractual agreements involving financial obligations. EAC is
committed for goods and services that have been ordered, but have not yet been
received.

A contingency is an existing condition, situation, or set of circumstances involving
uncertainty as to possible gain or loss. The uncertainty will ultimately be resolved when
one or more future events occur or fail to occur. A contingency liability is recognized
when a past event or exchange transaction has occurred, and future outflow or other
sacrifice of resources is measurable and probable. A contingency is not disclosed when
any of the conditions for liability recognition are met but the chance of the future event
or events’ occurring is remote. A contingency is disclosed when any of the conditions for
liability recognition are not met and the chance of the future confirming event or events
occurring is more than remote but less than probable.

Revenues and Other Financing Sources

Annual Appropriation

EAC receives its funding through an annual appropriation as provided by Congress.

Imputed Financing Sources

In accordance with OMB Circular A-136, all expenses should be reported by agencies
whether or not these expenses would be paid by the agency that incurs the expense.
The amounts for certain expenses of the EAC, which will be paid by other Federal
agencies, are recorded in the Statement of Net Cost. A corresponding amount is
recognized in the “Statement of Changes in Net Position” as an “Imputed Financing
Source.” These imputed financing sources primarily represent unfunded pension costs
of EAC employees, as described above.

Statement of Net Cost

Net cost of operations is the difference between the EAC’s expenses and its earned
revenue. For Fiscal year 2008 and 2009, the EAC has four programs; Communicate,
Fund and Oversee, Study, Guide & Assist, and Test & Certify. The cost for each
program is a sum of the direct costs of the program and an allocation of the agency’s
other overhead costs such as rent, telephone, administrative and financial support
staff. All grants and requirement payments are included in the Fund and Oversee
program.

Grants

The EAC administers and oversees the grant making process in connection with
federal Requirements Payments and grants made to recipient organizations under
the HAVA. As Requirements Payments and grants are awarded, they are recorded as

                                            24
obligations and represent uses of budgetary resources. Payments made under the
grant awards for expenditures already incurred by the recipients are fully expended
and are included in the statement of net costs. Grants awards made to grantees in
advance of expenditures are recorded as advances and are included in the balance
sheet.

Net Position

Net position is the residual difference between asset and liabilities and is comprised
of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent appropriated spending authority that is unobligated and has
not been withdrawn by the U.S. Treasury along with obligations that have not been
paid. Unobligated balances associated with appropriations that expire at the end of
the fiscal year remain available for obligation adjustments, but not for new
obligations, until that account is closed, five years after the appropriations expire.
Cumulative results of operations represent the excess of financing sources over
expenses since inception.

Use of Estimates

The preparation of the accompanying financial statements in accordance with
accounting principles generally accepted in the United States requires management
where necessary, to make certain estimates and assumptions that directly affect the
reported amounts of assets, liabilities, revenues, and expenses. Actual results could
differ from these estimates.

Note 2 – Fund Balance with Treasury
Fund balances with Treasury are contained within six annual funds (FY2005 through
FY2009) and two no-year funds. The total of fund balances with treasury consisted of
the following at September 30, 2009 and September 30, 2008:

                                                                         Restated
                                                   FY 2009               FY 2008
 Fund Balance with Treasury
      Appropriated Funds                       $   157,884,882         $133,466,533

 Status of Fund Balance with Treasury:
      Unobligated Balance
              Available                              7,452,047               766,191
               Unavailable                           6,546,853             6,795,762
      Obligated Balance not yet Disbursed          143,885,982           125,904,580
      Total                                    $   157,884,882         $ 133,466,533




                                          25
Available unobligated balances represent amounts that are apportioned for
obligation in the current fiscal year. Unavailable unobligated balances represent
amounts that are not apportioned for obligation during the current fiscal year along
with expired appropriations that are no longer available to incur new obligations.
Obligated balances not yet disbursed include undelivered orders unpaid and
expended authority-unpaid.

Note 3 – Accounts Receivable, net

Accounts receivable, net comprised of claims from associates consists of the
following as of September 30, 2009 and September 30, 2008:

                                                                      Restated
                                               FY 2009                FY 2008

       Accounts Receivable, net
            Claims from Associates        $         18,449        $     16,251
            Due from States                        330,697             330,697
                                          $        349,146        $    346,948

Note 4 – Advances and Prepayments

Advances and prepayments with non-governmental and governmental entities
consist of the following as of September 30, 2009 and September 30, 2008:

                                                                          Restated
Advances and Prepayments                           FY 2009                FY 2008
       With Governmental Entities              $      2,097,844         $ 2,961,010
       With Non-governmental Entities               34,692,298            52,249,395
Total                                          $    36,790,144          $ 55,210,405


Note 5 – General Property and Equipment, Net

The general components of capitalized property and equipment, net of accumulated
depreciation, consist of the following as of September 30, 2009 and September 30,
2008:
                                             2009
                      Service Life        Acquisition     Accumulated        Net Book
 Asset Class             (years)             Value        Depreciation         value
 Office Equipment           5            $ 113,943         $     61,256     $ 52,686
 Furniture                  5              303,613             125,851        177,762
 Leasehold
 Improvements               7              551,387             512,716         38,671
 Total                                   $ 968,943         $   699,823      $ 269,120

                                          26
                                        Restated
                                         2008
                     Service Life      Acquisition        Accumulated          Net Book
Asset Class            (years)            Value           Depreciation           value
Office Equipment          5            $ 84,546           $     41,355        $ 43,191
Furniture                 5              303,613                65,198          238,415
Leasehold
Improvements               7             551,387                 355,358        196,029
Total                                  $ 939,546          $      461,911      $ 477,635


Depreciation expense was $237,912 for the period ending September 30, 2009 and
$214,588 for the period ending September 30, 2008.

Note 6 – Liabilities

Liabilities Not Covered by Budgetary Resources

Liabilities Not Covered by Budgetary Resources result from the receipt of goods and
services, or the occurrence of events, for which appropriations, revenues, or other
financing sources necessary to pay the liabilities have not yet been made available
through Congressional appropriation.

Liabilities Not Covered by Budgetary Resources consisted of the following as of
September 30, 2009 and September 30, 2008:

                                                                  Restated
                                              FY 2009             FY 2008

       With the Public
             Unfunded Annual Leave        $     261,880          $ 185,889
             FECA Liability                         441                  0
                                          $     262,321          $ 185,889


Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources consist of the following as of September
30, 2009 and September 30, 2008:

                                                                                  Restated
                                                              FY 2009             FY 2008


                                         27
Intragovernmental
    Accounts payable                                     $     348,958       $   512,984
    Employer contributions and payroll taxes payable            47,716            40,645
Total intragovernmental                                        396,674           553,629

With the public
   Accounts payable                                           7,983,052          646,686
   Accrued payroll and benefits                                 241,878          227,068
Total with the public                                         8,224,930          873,754

Total liabilities covered by budgetary resources         $ 8,621,604         $ 1,427,383


Note 7 – Leases

EAC has no capital leases. The EAC has a current operating lease for the
headquarters office space located at 1225 New York Avenue, NW, Washington DC
which has been extended through July 31, 2009. The EAC entered into two new
operating leases on May 18, 2009 which extended the lease for the current
headquarters’ office space and provided for the occupancy for a future space located
at 1201 New York Avenue, Washington DC which is scheduled to be occupied in early
2010. These leases extend through March 31, 2014 or 56 months and commence
on August 1, 2009.

The EAC also has an operating lease for additional space located at 1440 New York
Avenue, NW, Washington, DC which commenced August 5, 2008 with an original
completion date of December 5, 2008. This lease has been extended through
January 2010 to coincide with the occupation of the new space as 1201 New York
Avenue, N.W. Washington, DC.

Future lease payments due under these leases through March 31, 2014 are:

        Future Operating Lease Payments          FY 2009
        Fiscal Year                           Lease Payment
        2010                                   $    833,676
        2011                                        921,702
        2012                                        929,627
        2013                                        937,790
        2014                                        477,588
        2015 and thereafter                               0
        Total future lease payments            $ 4,100,383

                                                   Restated
        Future Operating Lease Payments            FY 2008

                                         28
         Fiscal Year                           Lease Payment
         2009                                   $    268,860
         2010                                              0
         2011                                              0
         2012                                              0
         2013                                              0
         2014 and thereafter                               0
         Total future lease payments            $   268,860


Note 8 – Statement of Net Cost

For Fiscal year 2008 and 2009, the EAC has four programs; Communicate, Fund and
Oversee, Study, Guide & Assist, and Test & Certify. The cost for each program is a
sum of the direct costs of the program and an allocation of the agency’s other
overhead costs such as rent, telephone, administrative and financial support staff.
All grants and requirement payments are included in the Fund and Oversee program.
The total cost of operations for the periods ended September 30, 2009 and
September 30, 2008 is as follows:

                                    Fiscal Year 2009
Programs                          Intragovernmental With the Public    Total
  Communications                   $     268,849     $ 1,725,276 $ 1,994,125
  Fund & Oversee                          658,522     112,383,927   113,042,449
  Research, Policy & Program              400,703       2,571,420     2,972,123
  Testing and Certification               482,411       3,095,762     3,578,173
Total                               $ 1,810,485      $119,776,385 $121,586,870

                                        Restated
                                    Fiscal Year 2008
Programs                          Intragovernmental With the Public  Total
  Communications                   $      431,952    $ 1,111,882 $ 1,543,834
  Fund & Oversee                        1,058,028      5,540,933    6,598,961
  Research, Policy & Program              643,798      1,657,194    2,300,992
  Testing and Certification             1,995,116        775,074    2,770,190
Total                               $ 4,128,894      $ 9,085,083 $ 13,213,977


In accordance with OMB Circular A-136, costs incurred for goods and services
provided by other federal entities are reported in the full costs of EAC’s programs and
are identified as “intragovernmental.” All other costs are identified as “with the
public.”


Note 9 – Statement of Budgetary Resources


                                          29
The Statement of Budgetary Resources (SBR) compares budgetary resources with
the status of those resources. As of September 30, 2009, budgetary resources were
$128,956,539 and net outlays were $95,475,404. As of September 30, 2008,
restated, budgetary resources were $145,732,148 and net outlays were
$15,163,583.

Apportionment Categories of Obligations Received

EAC receives apportionments of its resources from OMB. These are “Category B”
apportionments which are for resources that can be obligated in compliance with
legislation underlying programs for which the resources were made available.

For the periods ended September 30, 2009 and September 30, 2008, restated,
direct obligations incurred amounted to $114,957,639 and $138,170,196.

Note 10 - Comparison to the Budget of the United States Government
SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for
Reconciling Budgetary and Financial Accounting, requires an explanation of material
differences between budgetary resources available, the status of those resources
and outlays as presented in the Statement of Budgetary Resources to the related
actual balances published in the Budget of the United States Government (Budget).
The Budget that will include FY 2009 actual budgetary execution information is
scheduled for publication in February 2011, which will be available through OMB’s
website at http://www.whitehouse.gov/omb. Accordingly, information required for
such disclosure for FY 2009 is not available at the time of publication of these
financial statements.

The Budget that includes the FY 2008 actual budgetary execution information was
published May 7, 2009. There are no differences between budgetary resources
available, the status of those resources and outlay as presented in the Statement of
Budgetary Resources for FY 2008 and the published Budget of the United States
Government (Budget),

Note 11 – Comparison of Statement of Budgetary Resources to Standard
Form 133

The 2008 Statement of Budgetary Resources has been restated to reflect the
correction of prior years accounting errors. As a result of these corrections, the 2009
SF-133 Report of Budget Execution and the Statement of Budgetary Resources differ.
These differences were due to the inclusion of these corrections as 2009 activity in
the SF-133 Report of Budget Execution, and as prior year activity in the 2009 and
2008 Statements of Budgetary Resources. The following table details the differences
for each line item.
                                              Statement of SF-133 Period
                                               Budgetary           Ended
 DIFFERENCES                                   Resources          9/30/09          Differences

                                           30
Unobligated Balance Brought Forward             $7,561,952     $ 7,342,134        $219,818
Recoveries of Prior Year Obligations               662,985         882,803        (219,818)
Appropriations Received                        123,959,000    123,959,000                 -
Collections                                        837,849     54,522,217      (53,684,368)
Non-Expenditure Transfers                       (4,000,000)    (4,000,000)                -
Permanently Not Available                          (65,247)        (65,247)               -
Total Budgetary Resources                      128,956,539    182,640,907      (53,684,368)

Obigations Incurred                            114,957,639    168,422,189      (53,464,550)
Unobligated Balance - apportioned                7,452,047      7,452,047                 -
Unobligated Balance - Not Available              6,546,853      6,766,671         (219,818)
Status of Budgetary Resources                  128,956,539    182,640,907      (53,684,368)

Unpaid Obligations, Brought Forward            125,904,580 126,124,398            (219,818)
Obligations Incurred, Net                      114,957,639 168,422,189         (53,464,550)
Less: Gross Outlays                            (96,313,253) (149,997,621)       53,684,368
Less: Recoveries of Prior Year Obligations        (662,985)     (882,803)          219,818
Total, unpaid obligated balance, EOY           143,885,981 143,666,163             219,818

Gross Outlays                                   96,313,253    149,997,621      (53,684,368)
Less: Offsetting Collections                     (837,849)    (54,522,217)      53,684,368
Net Outlays                                    $95,475,404    $ 95,475,404       $        -


Note 12 - Unpaid Obligated Balance, net

Unpaid obligated balance, net consists of undelivered orders and accounts payable.
Undelivered orders represent obligations for which goods and services have not yet
been received. Accounts payable includes goods and services which have been
received but not yet paid for. The total unpaid obligated balance, net as of
September 30, 2009 and September 30, 2008 was as follows:

                                                                 Restated
                                               FY 2009           FY 2008

         Undelivered Orders               $135,264,377        $124,477,197

         Accounts Payable                       8,621,604         1,427,383

         Unpaid obligated balance, net    $143,885,981        $125,904,580

Note 13: Reconciliation of Net Cost of Operations to Budget
The purpose of this note is to detail the differences between budgetary and financial
(proprietary) accounting. This is accomplished by means of a reconciliation of


                                          31
budgetary obligations and non-budgetary resources available to the reporting entity
with its net cost of operations.


                                                                                           Restated
Resources Used to Finance Activities                                       FY 2009         FY 2008
  Budgetary Resources Obligated

     Obligations Incurred                                                $114,957,639    $138,170,196
     Less: Spending authority from offsetting collections and
     recoveries                                                            (1,500,835)      (533,162)
     Net Obligations                                                      113,456,804     137,637,034

  Other Resources
     Imputed financing from costs absorbed by others                          214,233         145,793
     Net other resources used to finance activities                           214,233         145.793
  Total Resources Used to Finance Activities                              113,671,037     137,782,827

Resources Used to Finance Items not Part of the Net Cost of Operations
  Change in budgetary resources obligated for goods, services
  and benefits ordered but not yet provided                                (7,633,082)    123,982,925

  Resources that finance the acquisition of assets                             29,397        878,693
  Total Resources Used to Finance Items no Part of
  the Net Cost of Operations                                               (7,603,685)    124,861,618
Total Resources Used to Finance the Net Cost of Operations                121,274,722      12,921,209

Components of Net Cost of Operations that will not
Require or Generate Resources in the Current Period
  Components Requiring or Generating Resouces in Future Periods:

      Increases in annual leave liability                                      76,432          78,180
      Total Components of Net Cost of Operations that
      will Require or Generate Resources in Future Periods                     76,432          78,180
   Components not Requiring or Generating Resources:
      Depreciation and amortization                                           237,913        214,588
      Other                                                                    (2,197)             0
   Total Components of Net Cost of Operations that will not
   Require or Generate Resources                                              235,716        214,588
Total Components of Net Cost of Operations that will not
Require or Generate Resources in the Current Period                           312,148         292,768
Net Cost of Operations                                                   $121,586,870     $13,213,977

The “Other” amount of $(2,197) shown in “Components not Requiring or Generating
Resources” in Fiscal Year 2009 represents the net change in accounts receivable
from employees for the year.

Note 14 Requirements Payments and Grant Programs

The EAC Requirements Payments and grant programs are funded through annual
appropriations. The largest of the grant programs is the Title III of the Help America
Vote Act (HAVA) Section 251 Requirements Payments for states to help them meet


                                                  32
HAVA requirements. The EAC periodically receives additional grant money to fund
grant programs such as Research of Voting Technology Improvements, College Poll
Worker and Mock Election grants. Reflected in the Statement of Net Costs for
periods ending September 30, 2009 and September 30, 2008, are the following
requirements and grant program payments:
                                                                     Restated
                                                   FY 2009           FY 2008
 FY 2008 Section 251 Requirement Payments $ 56,958,220              $2,270,345
 FY 2009 Section 251 Requirement Payments          44,003,519                   -
 FY 2008 Data Collection Grants                     6,592,164           335,464
 College Poll Worker Grants                            490,952          142,360
 Mock Election Grants                                113,157             70,305
                                                $108,158,012        $ 2,818,474


Note 15 Restatement

EAC’s Balance Sheet, Statement of Net Cost, Statement of Changes in Net
Position and Statement of Budgetary Resources have been restated to correct
the financial reporting for the following items:

1. At the end of FY 2008, EAC did not capitalize and depreciate leasehold
   improvements completed within the currently occupied office space. EAC
   capitalized and depreciated furniture and equipment that did not meet
   EAC’s established capitalization thresholds and EAC did not capitalize and
   depreciate certain furniture and equipment that did meet EAC’s
   established capitalization thresholds. This resulted in a net change to
   General Property and Equipment of $328,754 and an increase in Accounts
   Payable of $511,195.
2. EAC recognized as program expenses on the Statement of Net Costs,
   certain advances made to grantees and vendors for $55,210,405. These
   expenses were reclassified as Advances. These included $52,249,395 for
   EAC’s FY 2008 Data Collection, Mock Election and College Poll worker
   grant programs and unspent Section 102 payments to States and
   $2,961,010 for payments to the Department of Interior’s Acquisition
   Services Directorate (AQD). The Section 102 payments were originally
   disbursed by the General Services Administration.
3. EAC did not recognize $253,506 as program expenses expenditures made
   by grantees under the EAC grant programs and vendor expenses of
   $150,069 not correctly accrued less vendor expenses of $215,213 that
   were improperly accrued.
4. The EAC recorded $330,697 in Accounts Receivable for Section 102 funds
   unspent by States that did not file the extension waiver as required by

                                        33
   HAVA. These funds were originally disbursed by the General Services
   Administration.
5. The EAC reduced Unexpended Appropriations and Expended Appropriations
   by $49,221 for transactions occurring in prior years that were not recorded
   in these accounts.

The results of these changes are reflected in the table below:

                                                    Unaudited
                                                     FY 2008        Effect of     FY 2008
Balance Sheet                                       Reported      Restatement     Restated
  Accounts receivable, net                        $     16,251   $    330,697   $   346,948
  Advances and prepayments
       Intragovernmental                                    -      2,961,010       2,961,010
       With public                                          -     52,249,395      52,249,395
  General property and equipment, net                 148,881        328,754         477,635
  Accounts payable
       Intragovernmental                              215,213       297,771         512,984
       With public                                    244,900       401,786         646,686
  Unexpended appropriations                       132,803,165     54,792,324    187,595,489
  Cumulative results of operations                    (85,217)      377,977         292,760

Statement of Net Costs: Program Costs              15,180,494     (1,966,517)    13,213,977

Statement of Changes in Net Position
  Beginning Balance                                  (156,930)     (135,184)       (292,114)
  Appropriations used                              15,106,414     (1,453,356)    13,653,058
  Unexpended Appropriations                         9,629,579     53,338,967     62,968,547

Statement of Budgetary Resources
  Recoveries of prior year obligations               298,458         215,213        513,671
  Status of Budgetary Resources
       Obligations incurred, net                  138,174,801         (4,605)   138,170,196
       Unobligated Balance – Apportioned              761,585          4,605        766,190
       Unobligated Balance - Not Available          6,580,549        215,213      6,795,762
  Change in Obligated Balance:
       Less: Recoveries of PY unpaid obligation     (298,458)       (215,213)      (513,671)




                                            34
                          U.S. ELECTION ASSISTANCE COMMISSION
                          1225 New York Ave. NW – Suite 1100
                          Washington, DC 20005




                                                                                  October 15, 2009

Memorandum

To:              Gineen Bresso Beach
                 Chair, U.S. Election Assistance Commission

From: 	          Curtis W. Crider
                 Inspector General

Subject: 	       Inspector General’s Statement Summarizing the Major Management and
                 Performance Challenges Facing the U.S. Election Assistance Commission

        In accordance with the Reports Consolidation Act of 2000, I am submitting our annual
statement summarizing what the Office of Inspector General (OIG) considers to be the most
serious management and performance challenges facing the U.S. Election Assistance
Commission (EAC). We have compiled this list based upon our audit, inspection and evaluation
work; general knowledge of the agency’s operations; and the reports of others such as the
Government Accountability Office (GAO).

       This year’s management challenges fall into four categories: (1) performance
management and accountability; (2) financial management and performance; (3) information
technology management and security; and (4) human capital management. Of these challenges,
two were present in the prior year and two are new. We have noted the progress that EAC has
made on each of the challenges identified.

          If you have any questions or need additional information, please call me at 202-566-
3125.


Attachment




                                                  1

                                                                               Attachment


           EAC MANAGEMENT AND PERFORMANCE CHALLENGES

                        FISCAL YEAR 2009 



The U.S. Election Assistance Commission’s (EAC) FY 20089 Top Management
Challenges identified by the Office of Inspector General (OIG) are below. The OIG
assessed the EAC’s progress in these areas and continues to review and monitor how
these issues are addressed.

      Performance Management and Accountability

      Financial Management and Performance

      Information Technology Management and Security

      Human Capital Management


CHALLENGE 1: PERFORMANCE MANAGEMENT AND ACCOUNTABILITY

In fiscal year 2008, the OIG issued the following management challenge:

   Effective management and accountability are integral to any operation and must start
   with senior management. At the EAC, senior management consists of four full-time
   commissioners and an executive director. However, confusion over the roles and
   responsibilities of the commissioners and the executive director has resulted in a lack
   of leadership, a failure to hold people accountable, and a decline in staff morale.
   EAC has recently delineated the roles and responsibilities of the commissioners and
   the executive director.

   In February of 2008, the OIG issued a report that identified long-standing and
   overarching weaknesses related to the operations of the EAC that need to be
   addressed immediately. The assessment disclosed that the EAC needs to establish:

          Short and long-term strategic plans, performance goals and measurements to
           guide the organization and staff.
          An organizational structure that clearly defines areas of responsibility and an
           effective hierarchy for reporting.
          Appropriate and effective internal controls based on risk assessments.
          Policies and procedures in all program areas to document governance and
           accountability structure and practices in place. It is imperative that the
           Commissioners define their roles and responsibilities in relationship to the
           daily operations of the EAC and to assume the appropriate leadership role.




                                             1

Actions to improve EAC operations are being accomplished; however, a significant
amount of work still needs to be done. Without effective management and
accountability, the ability of the EAC to meet its mission is substantially diminished.

Performance management and accountability continues to be a challenge for EAC in
fiscal year 2009 and beyond, as EAC has not adopted and implemented the needed
policies and procedures to define the performance plans and measurements for the
various EAC programs, identify the reporting relationships beyond the executive director
and commissioners, and establish effective internal controls. The EAC has completed
draft policies and procedures for some of its programs, but has not adopted or
implemented them. In the current environment of increased transparency and
accountability, it is critical that EAC have these goals, measures, policies and procedures
in place. EAC is accountable to the American public as to whether its programs and
activities mirror its goals and objectives, as well as whether the programs and activities
are ultimately successful in comparison to the established goals and measures.

EAC’s Progress

EAC has made some progress toward the development of a strategic plan or direction for
the agency as well as the implementing policies and procedures that flow from the
strategic plan. The following is a listing of the activities that EAC has completed:

      Adopted an agency-wide strategic plan in March 2009
      Adopted a roles and responsibilities document that delineates responsibilities
       between the commissioners and the executive director in September 2008

In addition, EAC is in the process of developing strategic planning tools for each of its
divisions or programs, including the policies and procedures needed to implement the
programs’ strategic direction. The EAC anticipated having this work completed on or
before June 30, 2009. EAC has not, however, implemented those policies and
procedures.

CHALLENGE 2: FINANCIAL MANAGEMENT AND PERFORMANCE

In fiscal year 2008, the OIG issued the following management challenge:

   EAC lacks the ability to effectively manage its financial operations. In fiscal year
   2007, poor control over its budget and expenditures resulted in the organization
   returning about $2.4 million to the U.S. Treasury despite the need for additional staff
   and systems to deliver services and complete statutory tasks. In fiscal year 2008,
   problems persisted. EAC did not set up an operating budget for its divisions or a
   sufficient system to determine the status of its appropriations. Furthermore, it was not
   until a contractor was brought on in July 2008 that the EAC determined how much
   operating money it had spent and how much it had left.




                                             2

   More recently, the independent auditors, Clifton Gunderson LLP (CG), under
   contract with the OIG, were unable to complete an audit of the EAC’s financial
   statements for fiscal year 2008 due to management’s inability to provide timely
   financial information and material weaknesses in internal controls. In regards to
   controls, management was not able to assure that it had identified, implemented, and
   tested internal controls over its financial or program operations. Congress established
   management’s responsibility for internal controls in the Federal Managers Financial
   Integrity Act of 1982 (FMFIA). The Office of Management and Budget (OMB)
   issued implementing instructions to Federal agencies in Circular No. A-123. The
   Circular requires agencies to issue an annual statement to OMB on whether the
   Agency’s financial, management, and automated information security system controls
   conform to the government-wide standards. The EAC however, does not have a
   process to make such a determination.

   ACTIONS NEEDED

   To move forward, the Commissioners must put someone in place that has the
   responsibility and authority to manage the daily operations of the agency.
   Simultaneously, the EAC must develop and implement a comprehensive strategy that
   addresses the need for qualified and capable financial management staff; and corrects
   inconsistent and flawed business processes, unreliable financial information, and non-
   existent FMFIA process.

The OIG’s 2008 Assessment Report identified weaknesses that related to seven findings
that directly impact the EAC’s financial management function. According to EAC’s
follow-up report, only one of those five of those findings remains open. However, the
EAC must adequately implement internal controls and procedures to ensure that funds are
reported and expended properly. Furthermore, it must complete a risk assessment to
identify internal and external risks so as to identify and implement internal controls to
mitigate those risks.

EAC’s Progress

EAC has made progress toward the development of policies and procedures and
implementation of additional personnel and financial resources to remedy the weaknesses
identified in the OIG’s 2008 Assessment Report. The following is a listing of the
activities that EAC has completed:

      Hired a CFO/Budget Officer
      Hired an Accounting Director
      Reconstructed accounts to adequately record most obligations and expenditures
      Developed a list of financial laws and regulations that apply to EAC
      Adopted a strategic plan which included a new organizational structure for the
       Administrative Division 

      Implemented monthly fund control reviews 

      Developed policies and procedures to implement audit follow-up 



                                            3

CHALLENGE 3: INFORMATION TECHNOLOGY MANAGEMENT AND
SECURITY

The Federal Information Security Management Act (FISMA) requires each federal
agency to develop, document and implement an agency-wide program to provide
information security and develop a comprehensive framework to protect the
government’s information, operations and assets. To ensure the adequacy and
effectiveness of information security controls, the OIG annually assesses the EAC’s
efforts to safeguard data processed by its computer systems and networks. Our reviews
have found that the EAC is not in compliance with FISMA or in pertinent part with the
Privacy Act. For EAC, managing and securing information is a significant deficiency.

EAC’s Progress

The most recent FISMA review found that the EAC has made significant efforts to
improve its information technology security and to protect its sensitive data; however,
there is still work to be done to bring EAC into compliance with FISMA and OMB
requirements. The following are the current findings related to information technology
and data security:

       Finding                                   Title
       Number
      FY09-01      Establish an overall comprehensive plan of action and
                   milestone (POA&M) document, with target dates for
                   completion of corrective actions, to address the problems
                   noted in this report. Assure that the plan is monitored on a
                   monthly basis and updates provided to the commissioners.
      FY09-02      Provide sufficient specialized training to EAC personnel to
                   enable EAC to develop and maintain a risk-based IT security
                   program that meets FISMA requirements, or hire an official
                   that has experience managing an agency-wide IT security
                   program.
      FY09-03      Establish a continuous monitoring program to address the
                   NIST 800-53 requirements.
      FY09-04      Finalize the EAC IT security handbook, and establish a
                   process to identify and document necessary operational
                   processes to enable personnel to meet the control
                   requirements contained in the handbook, and applicable
                   NIST control requirements.
      FY09-05      Assign a high priority to the completion of required
                   contingency plans and COOP documents.
      FY09-06      Implement the minimum password settings for the network.
                   Ensure that other FDCC mandatory configuration settings
                   are established as soon as possible.



                                            4

       Finding                                   Title
       Number
      FY09-07      Implement access controls required by FISMA, including
                   controls over all remote access methods, and OMB guidance
                   on securing PII data.
      FY09-08      Finalize the risk assessment, and ensure it is used to develop
                   risk-based controls, and as a starting point for development
                   of contingency plans and COOP documents.
      FY09-09      Monitor ongoing actions to ensure that compliance with
                   OMB PII guidance and Privacy Act requirements are
                   completed expeditiously.
      FY09-10      Establish controls over the audit logs maintained to ensure
                   that the system is capable of providing required alerts.
                   Ensure that periodic reviews are made of the logs to identify
                   any unusual activity, other concerns or problems.
      FY09-11      Ensure that access controls are implemented for all EAC
                   network devices.


CHALLENGE 4: HUMAN CAPITAL MANAGEMENT

The Government Accountability Office (GAO) has designated strategic human capital
management as a high risk area across the federal government since 2001. According to
GAO, human capital management is a government wide problem that is eroding the
ability of many agencies to economically, efficiently, and effectively perform their
missions. GAO recognized that an agency’s workforce is its most important
organizational asset. Agencies alter the organization’s performance by the way that they
treat and manage their staffs and build commitment and accountability by involving and
empowering their employees. GAO provided a framework for improving human capital
management across the federal government which included recruiting, hiring, developing
and retaining employees with the skills needed for mission accomplishment; creating an
employee-friendly work place; and empowering and motivating employees while
ensuring accountability and fairness in the workplace.

For the past two years, EAC has participated in the government’s annual employee
survey. The results of these surveys identify critical weaknesses in EAC’s human capital
management efforts. The EAC employees have consistently expressed their
dissatisfaction with ability of EAC leadership to generate high levels of motivation, to
review and evaluate the organization’s progress toward meeting goals and objectives, and
to communicate the organization’s goals and priorities. Employees did not report a sense
of involvement in the decisions that impact their work, the policies and practices of the
senior leaders, or that management shares information about what goes on the
organization. Employees also do not believe that promotions and rewards are merit based
or reflect how well the employee performs his/her job. Perhaps the most disturbing of the
survey questions reports that the percentage of employees that feel that they can report a
violation of law, rule or regulation without fear of reprisal fell from 55.6% in 2007 to


                                            5

36.3% in 2008. The results of this survey show that EAC does not operate an employee-
friendly work place and that its efforts to empower and include employees have fallen
short. EAC must evaluate its personnel management strategy and it successes and
failures to develop an approach toward human capital management that will ensure a
qualified, satisfied work force is available to do the work necessary to fulfill its mission.

Likewise, EAC must ensure that it has trained, experienced personnel assigned to critical
functions. The OIG assessed EAC operations in 2008 and determined that there were
significant gaps in qualified personnel to perform critical financial and administrative
functions. While some progress has been made to increase the number of employees in
critical functions that have federal government experience, there are still functions that
either have not been assigned or are currently assigned to untrained, inexperienced
personnel. EAC must evaluate its critical administrative and programmatic functions to
determine its personnel needs. Those needs should be compared to its personnel
resources. Functions should be assigned to persons who are trained and experienced in
the activity or persons should be recruited to fill those posts.

EAC’s Progress

EAC has made some progress, mostly in the area of hiring additional personnel to staff
the accounting and financial management function. The EAC has hired a contracting
officer, a CFO/Budget Officer, and an Accounting Director. EAC also reports having
completed a skills inventory of all EAC programs. The assessment was conducted in
conjunction with the Office of Personnel Management (OPM). However, it is unclear
whether the assessment focused on what skill sets are available at EAC or what skill sets
are needed at EAC. The OIG encourages EAC to assess both sides of that coin: what is
needed and what assets are present.




                                              6

                                                     November 9, 2009

Memorandum

To:          Curtis W. Crider
             Inspector General

From:        Gineen Bresso Beach
             Chair, U.S. Election Assistance Commission

Subject:     Election Assistance Commission Response to the Inspector General’s
             Statement Summarizing the Major Management and Performance Challenges


The Election Assistance Commission (EAC) over the past year pursued its mission to
assist the effective administration of Federal elections. This response to the Inspector
General’s Statement Summarizing the Major Management and Performance Challenges
highlights efforts to the strengthen management of its programs and operations. Specifics
associated with each of the identified major management challenges are discussed below.

Performance Management and Accountability

During FY 2009, to address issues in the FY 2008 financial statement audit, EAC:

         Adopted its first Strategic Plan in March 2009, covering 2009 through 2014,
          which identified the reporting relationships beyond the Executive Director and
          Commissioners in an organization chart, and which allows the agency to begin the
          process of reporting on formal performance metrics contained in the Plan;
         Reorganized overall structure and established its first Chief Financial Officer
          department consisting of experienced grants, budget, accounting and procurement
          staff;
         Finalized financial management policies and procedures;
         Submitted a FY 2010 Congressional Budget Justification and FY 2011 OMB
          Budget Justification in a performance based format; and
         Closed out many outstanding recommendations from operational audits and the
          FY 2008 financial statement audit.

The agency has made tremendous progress in the program areas during FY 2009. EAC:

          Made strides in certifying voting systems: between February and August, three
           voting systems were certified;
       Improved communications with stakeholders by instituting a Testing and
        Certification Voting System Reports Clearinghouse on its website;
       Issued best practices for voter information web sites, Quick Start Management
        guides on administering Federal elections, and a report on the Impact of the
        National Voter Registration Act on Federal Elections, 2007-2008
       Held working groups on UOCAVA, Elections, Technology & Accessibility, and
        Election Office Management.
       Awarded 13 Poll Worker grants totaling $750,000, and seven Mock Election
        grants totaling $300,000.

EAC’s plans for FY 2010 are in line with actions identified by the Inspector General for
completing the process of “developing and implementing strategic planning tools for
each of its divisions or programs.” Part of this process has been an independent review
of EAC performance measures, how well the measures capture information useful to
accomplishing agency goals, and how well the data collection systems produce reliable
results. EAC will implement a robust internal control program and reliable and useful
performance measurement systems, based on independent recommendations. Internal
control training for staff is planned for the first quarter of FY 2010. The training will
emphasize the importance of identifying risk.

EAC will work to finalize and implement remaining policies and procedures--
Communications, Clearinghouse, Research and updated administrative in FY 2010.

Financial Management and Performance

Policies and procedures for Grants Management, Testing and Certification, and Financial
Management have been finalized. Financial management policies and procedures
developed during the second half of the fiscal year upon set up of the CFO department,
are currently being implemented.

As mentioned above, an independent assessment of EAC’s risks was conducted, using the
reliability of performance measures in the Strategic Plan as a guide.

Information Technology Management and Security

As noted by the Federal Information Security Management Act (FISMA) of 2002
independent evaluation in FY 2009, EAC made significant efforts to improve information
security. Nevertheless, there is still work to be done to bring EAC in full compliance with
FISMA requirements. To facilitate this effort, EAC has developed an overall security
Plan of Action and Milestones (POA&M), which included target dates for completion of
key corrective actions. EAC is working with a contractor to implement several corrective
actions. The contractor will be required to keep EAC management closely informed of
all progress on these actions.

Once the items in the POA&M are implemented, the agency will be in full compliance
with requirements in every FISMA control area.


                                            2
The key areas of effort are summarized below, and more detail is available in both the
management response to the FISMA evaluation and the overall EAC POA&M. The
numbers below match the Finding Numbers in the OIG report; i.e., item 3 below matches
item FY-09-03 in the OIG report, and so on. Key FISMA efforts scheduled for FY 2010
include:

1. EAC management will monitor progress on implementation of the EAC FISMA
   POA&M.

2. EAC will initiate a search for a full-time Chief Information Officer (CIO), who may
   also serve as Senior Agency Information Security Officer (SAISO), Chief Privacy
   Officer, and information security proponent. EAC will finalize information security
   roles and responsibilities across the organization once the CIO position has been
   filled.

3. All operational procedures developed for information security at EAC will facilitate
   continuous monitoring of EAC information systems and security controls. This
   process will use automatic monitoring procedures such as automated system alerts
   using periodic review by qualified staff to ensure that procedures remain appropriate
   and relevant. In particular, procedures for change management, configuration
   management, audit log monitoring, network monitoring, patch management, risk
   management, and vulnerability scanning will facilitate continuous monitoring.

4. EAC will finalize and disseminate the provisional information security policies
   handbook to agency staff. In particular, key policies concerning privacy will be
   included in the 2010 employee information security awareness training. EAC
   information owners and information technology (IT) staff will develop, implement,
   and periodically review written operational procedures that specify how to implement
   the required controls to satisfy EAC's information security policy objectives in every
   FISMA control area.

5. EAC will develop a Business Impact Analysis (BIA), Disaster Recovery Plan (DRP),
   and a Continuity of Operations Plan (COOP), once the information owners review the
   current risk assessment, and major policies, procedures, and controls have been
   finalized and implemented.

6. Minimum password settings for the network have already been implemented and are
   now fully compliant with Federal Desktop Core Configuration standards (FDCC). At
   the appropriate time, EAC will develop a re-imaging schedule, present this schedule
   to appropriate supervisors, and then re-image computers as per this schedule.

7. EAC will work with the General Services Administration (GSA) to disable dialup
   remote access or, at a minimum, grant dialup access only on an as-required and/or
   contingency basis. EAC will re-initiate conversations with GSA and develop a
   timeline for the implementation of two-factor authentication for securing remote



                                            3
8. EAC's FISMA contractor will work with EAC information owners to review, refine,
   and finalize the provisional risk assessment. This will include a comprehensive
   review of threats and vulnerabilities, and a review of the National Institute of
   Standards and Technology (NIST) Special Publication 800-53 Recommended Security
   Controls for Federal information Systems security controls baseline already
   developed. Finally, a separation of controls into common and system-specific
   controls will be completed.

9. The EAC Privacy Officer has already taken inventory of PII systems and developed
   several draft policies and procedures related to protection of PII and privacy-related
   incident response. The FY 2009 EAC FISMA evaluation provides detailed guidance
   on areas in which EAC is still only partially compliant with PII and Privacy Act
   requirements, and EAC will formally adopt the PII recommendations from the
   FISMA evaluation as a guide to complete compliance. In particular, key PII policies
   will be included in the 2010 employee Privacy Act awareness training.

10. EAC IT staff will create a written itemization of every audit log type in use, will work
    with GSA to both identify and implement appropriate action on audit failures, and
    will develop a procedure to review these log files monthly and report errors to
    appropriate supervisors.

11. EAC will implement either a separate, limited-access "visitor" virtual local area
    network (VLAN) segment on the EAC network, or else create a completely isolated
    wireless network for visitor access. In either case, there will be no visitor access to
    any resources on the EAC network, including network devices such as printers,
    scanners, and copiers.

Human Capital Management

In the management area, EAC provided a process for independent assessment and
analysis of Human Capital Management in line with the Inspector General’s management
challenge. Management is addressing issues identified in the agency’s second employee
survey, through staff teambuilding efforts, staff focus groups, and employee retreats. A
professional facilitating team was retained to provide guidance, assistance and evaluation
of the overall issues identified in the Human Capital Survey.

EAC committed resources and time to move from a disclaimer opinion on our financial
statements to an unqualified (clean) opinion in the second half of FY 2009. EAC
continues to improve it programs and operations, strengthening internal controls,
financial management, and information technology across the agency.




                                              4
                                                                        Election Assistance Commission


III.C. IMPROPER PAYMENTS

The Improper Payments Act requires each Federal agency to assess all programs and
identify which, if any, may be subject to high risk with respect to improper payments. For
fiscal year 2009, EAC does not believe, that it has any programs where the erroneous
payments could exceed 2.5 percent of program payments or $10.0 million threshold (set in
OMB Guidance) to trigger further agency action.

III.D. SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT
ASSURANCES

                  SUMMARY OF FISCAL YEAR 2009 FINANCIAL STATEMENT AUDIT

Audit Opinion                        Unqualified

Restatement                          Yes

                                     Beginning                                            Ending
Material Weaknesses                   Balance      New       Resolved   Consolidated      Balance

Financial Accounting & Reporting        1           0           0             0               1

Support for Grant Accounting            1           0           1             0               0

Funds Control                           1           0           1             0               0

FMFIA Compliance & Reporting            1           0           1             0               0

    Accounting Processes not in
    Accordance with GAAP                0           1           1             0               0

     TOTAL WEAKNESSES                   4           1           4             0               1

                              SUMMARY OF MANAGEMENT ASSURANCES

Statement of Assurance                                         Qualified
(FMFIA§ 2)

Financial Management                  Systems conform to financial management system
System Assurance (FMFIA§ 4)           requirements

No.       Summary                     Beginning      New Resolved Consolidated Ending
                                      Balance                                  Balance

1         Material Weaknesses               11           1     10             0               2
          (FMFIA§ 2)

2         Non-conformances (FMFIA§          1            0      1             0               0
          4)

          TOTAL                             12           1     11             0               2


                                                   85

                                                                        Election Assistance Commission


RECONCILIATION OF MATERIAL WEAKNESSES

For the “Beginning Balances”, in FY 2008, the independent auditors identified four material
weaknesses. One of the weaknesses identified by the auditors, “Financial Accounting and
Reporting” contained 7 different subsections. EAC considered these separate subsections
to be individual material weaknesses for the sake of clarity and tracking improvement. In
addition, in FY 2008 EAC identified an additional weakness with respect to policies and
procedures. For year ending September 30, 2009, the independent auditors identified one
material weakness. The weaknesses identified by the auditors, “Accounting Processes not in
Accordance with GAAP” contained five different subsections. This material weakness was
resolved prior to the preparation of the financial statements dated September 30, 2009.



                                      Per              Per       Per      Per
                                    Auditors         Auditors    EAC      EAC
       Material Weaknesses           FY 08            FY 09     FY 08    FY 09        Difference

 Financial Accounting & Reporting       1               --       7          --             6

 Support for Grant Accounting           1               --       1          --             0

 Funds Control                          1               --       1          --             0

 FMFIA Compliance & Reporting           1               --       1          --             0

 Lack of Policies and Procedures        0               --        1         --             1

 Accounting Processes not in            --              1         --        1              0
 Accordance with GAAP

   TOTAL MATERIAL WEAKNESSES            4               1        11         1              7




                                               86

